<html>
<title> - EXAMINING THE FINANCES AND OPERATIONS OF THE UNITED STATES POSTAL SERVICE DURING COVID-19 AND UPCOMING ELECTIONS</title>
<body><pre>[Senate Hearing 116-484]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-484

                EXAMINING THE FINANCES AND OPERATIONS OF
                  THE UNITED STATES POSTAL SERVICE DURING 
                  COVID	19 AND UPCOMING ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

                            AUGUST 21, 2020

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                 U.S. GOVERNMENT PUBLISHING OFFICE                    
41-867 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------   

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                   Joseph C. Folio III, Chief Counsel
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
                       Clark A. Hedrick, Counsel
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
  Lena C. Chang, Minority Director of Governmental Affairs and Senior 
                                Counsel
                 Claudine J. Brenner, Minority Counsel
       Annika W. Christensen, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     3
    Senator Portman..............................................    13
    Senator Carper...............................................    15
    Senator Lankford.............................................    18
    Senator Hassan...............................................    21
    Senator Scott................................................    23
    Senator Rosen................................................    25
    Senator Paul.................................................    27
    Senator Romney...............................................    29
    Senator Enzi.................................................    31
    Senator Hawley...............................................    33
    Senator Sinema...............................................    36
Prepared statements:
    Senator Johnson..............................................    43
    Senator Peters...............................................    45

                               WITNESSES
                        Friday, August 21, 2020

Louis DeJoy, Postmaster General and Chief Executive Officer, 
  United States Postal Service
    Testimony....................................................     4
    Prepared statement...........................................    47

                                APPENDIX

DeJoy's Late trip and Extra Trip chart...........................    56
Income Statement Chart...........................................    64
First-Class Letters/Flats Composite Chart........................    65
Minority Interim Report..........................................    66
National Newspaper Association Statement.........................    71
Responses to post-hearing questions for the Record:
    Mr. DeJoy....................................................    76

 
                 EXAMINING THE FINANCES AND OPERATIONS
                  OF THE UNITED STATES POSTAL SERVICE
                 DURING COVID-19 AND UPCOMING ELECTIONS

                              ----------                              


                        FRIDAY, AUGUST 21, 2020

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9 o'clock a.m., 
via video conference, Hon. Ron Johnson, Chairman of the 
Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Romney, 
Scott, Enzi, Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. Good morning. This hearing will come to 
order. I want to start by thanking Postmaster General DeJoy 
first, for making himself available in such short notice, and 
second, for taking on the very thankless task of trying to 
maintain the United States Postal Service (USPS) as a 
financially viable entity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    Unfortunately, he has found out, over the last few weeks, 
that not only is it a thankless task, but he has already been 
subjected to character assassinations, as Democrats have put 
him in the crosshairs of another hyperbolic false narrative, 
perpetrated to gain political advantage.
    I hope we can stick to the facts in this hearing today. One 
fact that needs to be highlighted, one part of the false 
narrative, is that the Postmaster General is not appointed by 
President Trump. The bipartisan postal Board of Governors 
engaged a professional search firm that identified Louis DeJoy 
as an outstanding candidate with the necessary background and 
skill set to tackle the enormous challenges facing the postal 
system. The bipartisan Governors then unanimously--again, let 
me repeat that--they unanimously approved his appointment as 
Postmaster General. Mr. DeJoy reports to the Board, not the 
President.
    Another false narrative is that a failure to provide 
funding to the Postal Service will undermine the election. The 
Postal Service currently has $15.1 billion in cash on hand, 
following a better-than-expected financial performance during 
the pandemic. Due to a surge in package delivery, rather than 
being down, the Postal Service's revenue is actually $1.5 
billion higher this year than during the same period last year.
    That said, the long-term financial reality of the postal 
system is bleak, and it has been bleak for years. The main 
reason is that First-Class mail volume has declined 
dramatically with the advent of the Internet. Because the 
postal system is constrained by a host of legislative 
requirements, it does not have the flexibility a private sector 
entity would have to deal with the dramatic reduction in the 
demand for its products.
    In a perfect world, the postal system would have funded its 
long-term pension retiree health care liability as they were 
incurred. Because they did not, those unfunded liabilities now 
total $120 billion. Unfortunately, the 2006 postal reform bill 
did not ensure long-term financial viability, and in its 
attempt to address the unfunded liability problem it depleted 
the postal system of cash and arbitrarily turned long-term 
liabilities into short-term liabilities on its balance sheet.
    Subsequent attempts at reform have largely proposed a 
taxpayer bailout. The cost of these proposals is generally 
understated, based on the Congressional Budget Office (CBOs) 
10-year scoring requirement, which misleadingly characterizes a 
$48.8 billion bailout as only costing $10.7 billion over 10 
years. These proposals also lack the full range of structural 
reforms that will be required to ensure the long-term viability 
of the system.
    For years, the Government Accountability Office (GAO) and 
inspector general reports have recommended reform that, at 
best, have only been partially implemented. One of the most 
costly inefficiencies that have been repeatedly highlighted in 
these reports is the out of control use and payment of 
overtime. To its credit, this is a reform that Postmaster DeJoy 
began implementing shortly after his appointment. According to 
an inspector general report issued the day Postmaster DeJoy was 
sworn in, the post office spent $4 billion in fiscal year 2019 
in mail processing and delivery overtime and penalty overtime 
costs. Those overtime costs represent 45 percent of the postal 
system's $8.8 billion loss for last year.
    Postmaster DeJoy's commendable attempt to reduce those 
excess costs are now being cynically used to create this false 
political narrative. According to Democrats, the Postmaster is 
trying to sabotage the postal system to disenfranchise voters 
in the upcoming election. Notices that were sent before he was 
sworn in, meant to inform election officials to factor in 
normal postal capabilities in setting their ballot deadlines, 
are being used as evidence of this conspiracy theory, and a 
willing media is once again happily playing along.
    On average, the postal system delivered 2.6 billion pieces 
of non-package mail per week in 2019. Because of Coronavirus 
Disease (COVID-19), the postal system's first class weekly 
volume was down 17 percent this year to date. Even if every 
voter used in mail-in balloting that would be approximately 150 
million pieces of mail, or less than 6 percent of weekly 
volume. As long as election officials factor in normal postal 
delivery capabilities, and in light of the 17 percent decline 
in weekly volume, the postal system has more than enough excess 
capacity to handle mail-in balloting.
    So again, I want to thank Postmaster General DeJoy for his 
appearance today, for his service, and I look forward to your 
testimony. Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman. Mr. DeJoy, I 
certainly appreciate you joining us here today. As you can 
imagine, we have a lot of questions for you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 45.
---------------------------------------------------------------------------
    We are in the middle of an unprecedented pandemic. We are 
experiencing one of the nation's worst health and economic 
crises. Now we are facing a mail crisis, and we are just months 
away from an election where we expect record numbers of 
Americans to vote by mail.
    For many communities in Michigan and across the country the 
Postal Service has always been a lifeline, especially for the 
communities where private carriers simply do not deliver. 
Whether folks are receiving important medications, financial 
documents, critical home supplies, or simply trying to stay in 
touch with their loved ones, the Postal Service has always 
delivered. But Mr. DeJoy, I do not think you have. You have not 
delivered in this brief tenure so far.
    For more than two centuries, Americans have been able to 
count on the Postal Service, but in less than 2 months as 
Postmaster General you have undermined one of our nation's most 
trusted institutions and wreaked havoc on families, on 
veterans, seniors, rural communities, and on people all across 
our country.
    The operational changes you implemented, without consulting 
with your customers or the public, have caused significant 
delays, delays that have hurt people across the Nation, delays 
that come at a time when people depend on reliable service, now 
more than ever.
    In July, I started hearing reports about how severely your 
changes were slowing down the mail. I asked you for answers. 
But it was not until I launched an investigation that you 
admitted that you had directed these changes yourself. And 
despite multiple requests, it took more than 1 month to respond 
directly, and I am still not satisfied with those explanations.
    You have brushed off these delays, calling them inevitable, 
a side effect of your vision for the Postal Service. Let me 
tell you about the people who are forced to bear the brunt of 
your decisions. Beth, from Ada, Michigan, works for a company 
that produces educational materials for health care workers. 
Beth's company started seeing serious delivery problems and 
switched to overnight shipping, which has almost doubled their 
shipping costs. Between these delays and the pandemic they have 
had to lay off multiple employees to help absorb these costs.
    Mary from Redford said her daughter has been getting her 
epilepsy medication through the mail, usually in 3 to 4 days. 
But because of changes you ordered, her latest refill shipped 
on July 20th, and it took 9 days to be delivered. When Mary's 
daughter realized the medication was not going to arrive on 
time, she tried to ration what few pills that she had left. As 
a result, she suffered seizures and was transported to a 
hospital.
    These are just a few of my constituents who shared their 
stories as part of my investigation. I have received more than 
7,500 reports of delays from people across Michigan and across 
the country, in just 2 weeks. They have written to me about 
skipping doses of their medication, and their small businesses 
losing customers or having to lay off employees, all because of 
changes that you directed.
    Mr. Chairman, I move to enter into the hearing record an 
update on what my investigation is finding.\1\
---------------------------------------------------------------------------
    \1\ The information referenced by Senator Peters appear in the 
Appendix on page 66.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Mr. DeJoy, your decisions have cost 
Americans their health, their time, their livelihoods, and 
their peace of mind. I believe you owe them an apology for the 
harm you have caused, and you owe all of us some very clear 
answers today.
    The country is anxious about whether the damage you have 
inflicted so far can be quickly reversed, and what other plans 
you have in store that could further disrupt reliability and 
timely delivery from the Postal Service. If you plan to 
continue pursuing these kinds of changes, I think my colleagues 
and many of our constituents will continue to question whether 
you are the right person to lead this indispensable 
institution. Thank you.
    Chairman Johnson. It is the tradition of this Committee to 
swear in witnesses, so, Mr. DeJoy, if you will raise your right 
hand.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. DeJoy. I do.
    Chairman Johnson. Thank you.
    Mr. Louis DeJoy has served as the Postmaster General since 
June 2020. Prior to his unanimous selection and appointment by 
the bipartisan Postal Service Board of Governors, he spent more 
than 35 years developing and managing a successful nationwide 
logistics company, as Chairman and Chief Executive Officer 
(CEO) of New Breed Logistics.
    Beginning in 2014, Mr. DeJoy served as the CEO of XPO 
Logistics' supply chain business in the Americas. After his 
retirement in 2015, he joined the company's board of directors 
where he served until 2018. Mr. DeJoy.

   TESTIMONY OF LOUIS DeJOY,\2\ POSTMASTER GENERAL AND CHIEF 
        EXECUTIVE OFFICER, UNITED STATES POSTAL SERVICE

    Mr. DeJoy. Good morning Chairman, Ranking Member Peters, 
and Members of the Committee. Thank you, Chairman Johnson, for 
calling this hearing. I am proud to be with you today on behalf 
of the 630,000 dedicated women and men of the United States 
Postal Service.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. DeJoy appears in the Appendix on 
page 47.
---------------------------------------------------------------------------
    On June 15th, I became America's 75th Postmaster General. I 
did so because I believe the Postal Service plays a 
tremendously positive role in the lives of the American public 
and the life of the Nation. I also welcomed the opportunity to 
lead this organization, because I believe there is an 
opportunity for the Postal Service to better serve the American 
public and also to operate in a financially sustainable manner.
    Congress established the Postal Service to fulfill a public 
service mission to provide prompt, reliable, and universal 
postal services to the American public, in an efficient and 
financially sustainable fashion. Our ability to fulfill that 
mandate in the coming years is at fundamental risk. Changes 
must be made to ensure our sustainability for the years and 
decades ahead.
    Our business model, established by the Congress, requires 
us to pay our bills through our own efforts. I view it as my 
personal obligation to put the organization in a position to 
fulfill that mandate. With action from the Congress and our 
regulator, and significant effort by the Postal Service, we can 
achieve this goal.
    This year, the Postal Service will likely report a loss of 
more than $9 billion. Without change, our losses will only 
increase in the years to come. It is vital that Congress enact 
reform legislation that addresses our unaffordable retirement 
payments. Most importantly, Congress must allow the Postal 
Service to integrate our retiree health benefits program with 
Medicare, which is a common-sense practice followed by all 
businesses that still offer retiree health care.
    It also must rationalize our pension funding payments. 
Legislative actions have been discussed and debated for years 
but no action has been taken. I urge the Congress to 
expeditiously enact these reforms. I also urge the Congress to 
enact legislation that would provide the Postal Service with 
financial relief to account for the impacts of the COVID-19 
pandemic on our financial condition.
    The Postal Regulatory Commission (PRC) began a mandated 
review of our pricing system 4 years ago. It has been 3 years 
since the Commission concluded that our current system is not 
working. We urgently require the PRC to do its job and 
establish a more rational regulatory system for our mail 
products. Had the Congress and PRC fulfilled their obligations 
to the American public concerning the Postal Service, I am 
certain that much of our $80 billion in cumulative losses since 
2007 could have been avoided, and that our operational and 
financial performance would not now be in such jeopardy.
    The Postal Service must also do its part. We must adapt to 
the realities of our marketplace, generate more revenue, and 
control our costs. I believe we can chart a path for our 
business that accomplishes these goals.
    In my 67 days as Postmaster General, I have also had the 
chance to observe the many hidden strengths of the organization 
and appreciate our critical mission of service to the American 
public. Despite our deep, longstanding financial problems, 
there is an incredibly strong base to build upon and a 
tremendous desire of the public for the Postal Service to 
succeed.
    As we head into the election season, I want to assure this 
Committee and the American public that the Postal Service is 
fully capable and committed to delivering the nation's election 
mail securely and on time. This sacred duty is my No. 1 
priority between now and Election Day.
    Mr. Chairman, women and men of the Postal Service have 
demonstrated extraordinary commitment for our mission 
throughout the COVID-19 pandemic. In every community in 
America, we continue to work to keep our employees and 
customers safe as we fulfill our essential role delivering 
medications, benefit checks, and financial statements the 
public depends upon.
    Since the beginning of the pandemic there has been a public 
outpouring of support for postal employees as they perform 
their essential service throughout the Nation. This is a well-
deserved testament to their dedication.
    Mr. Chairman, Ranking Member Peters, I look forward to 
working with you and this Committee and our stakeholders to 
restore the financial health of the United States Postal 
Service and to improve the way we serve the American public. 
This concludes my remarks and I welcome any questions that you 
and the Committee may have.
    Chairman Johnson. Well thank you for that opening 
statement, Mr. Postmaster General. I just want to kind of go 
through and give you a chance to respond to some of these false 
narratives.
    First of all, let's talk about that election notice that 
was sent out by, I believe, the Postal Service's general 
counsel, one notice before you became Postmaster General, one 
notice, I think, after you assumed your duties. Talk about what 
that notice was about, and, from my standpoint, how important 
it was that the Postal Service does inform election officials 
of what your basic capabilities are so they can factor that 
into their deadlines.
    Mr. DeJoy. Yes, sir. Thank you for the opportunity to speak 
about this. First I would like to emphasize that there has been 
no changes in any policies with regard to election mail for the 
2020 election. As you stated, this letter was sent out before 
my arrival, simply to help educate State election boards, and 
eventually the American people. There was a plan put together 
to eventually make this a broader statement so the American 
people had awareness on how to successfully vote.
    A very similar letter was sent in the 2016 election by the 
former Deputy Postmaster General. We recognized that during 
this pandemic, when I arrived there was great concern about the 
increase in volume, so we further emphasized the interaction. 
We had over 50,000 contacts before my arrival with State 
election boards to help them understand the mail processing 
procedures of the Postal Service.
    Since my arrival, we have established and expanded a task 
force, we have put up a website, or we are putting up a website 
within a day, and we are diligently working to assure the 
American public, and to ensure a successful election.
    Chairman Johnson. In my opening statement I remarked that 
150 million pieces, or ballots, would represent about 6 percent 
of weekly volume. I think in your written testimony you said, 
in terms of what is actually expected in terms of mail-in 
ballots, about 2 percent. Can you just talk about and assure 
the American public and this Committee that the postal system 
has more than enough capacity to handle the number of ballots? 
It is really a matter of election officials understanding what 
delivery capabilities are?
    Mr. DeJoy. Yes, sir. We deliver 433 million pieces of mail 
a day, so 150 million ballots, 160 million ballots over the 
course of a week is a very small amount. We have adequate 
capacity. Plus mail volume is down, as you said, 13 or 14 
percent this year.
    Plus, as I identified earlier in the week, we will have 
additional resources on standby. I mean, if everyone complies 
with the mail process that we have been identifying, there will 
be absolutely no issue, and there is slack in the system and 
additional processes that we will deploy in and around the 
election that will carry a good part of any deviations to get 
through.
    The Postal Service stands ready. Our board of directors 
stand ready, with the expansion of the task force that I 
identified earlier in the week. Yesterday we made the decision 
to establish a bipartisan board committee to stand over the 
Postal--to interact with us as we move forward. We are very 
comfortable that we will achieve this mission, sir.
    Chairman Johnson. Something else that I think has been 
blown way out of proportion is the retirement of some of the 
blue boxes. Can you speak to how that is just a normal 
procedure that we have literally--because, First-Class mail is 
down over the decades. The volume has been almost cut in half, 
I think. I do not have the numbers right off the top of my 
head.
    But any time you have a business where your volume is 
declining that dramatically you will take out different 
capacities. So can you address the issue of the normal 
retirement, what the history of that has been, of not only the 
blue boxes but also some of your sorting machines?
    Mr. DeJoy. Yes, sir. Thank you for the opportunity to speak 
about that. Today there are about 140,000 collection boxes out 
in the United States. Over the last 10 years, it average about 
3,500 a year. 35,000 of them have been removed. It is a data-
driven method. I have not reviewed it, but every year they look 
at utilization of post boxes, they look at where they place new 
post boxes, they look at where communities grow. So 35,000 over 
10 years.
    Since my arrival we removed 700 collection boxes. I had no 
idea that that was a process. When I found out about it, we 
socialized it here, amongst the leadership team, and looked at 
the excitement it was creating. I decided to stop it, and we 
will pick it up after the election.
    But this is a normal process that has been around 50 years, 
and over the last 10 years we have pulled back about 35,000.
    On the machines, we are speaking about, again, mail volume 
is dropping. This is a process that I was unaware about, but it 
has been around. It has been around for a couple of years now. 
We evaluate our machine capacity. These machines run about 35 
percent utilization. The mail volume is dropping very rapidly, 
especially during the COVID crisis, and package volume is 
growing and when I spoke with the team, when this, too, got a 
lot of airplay, we really are moving these machines out to make 
room to process packages. We have hundreds of these machines 
everywhere, and still not any kind of drain on capacity.
    I repeat, for both the collection boxes and this machine 
close-down, I was made aware when everybody else was made 
aware. It was not a critical issue within the Postal Service. 
This has been going on in every election year, in every year, 
for that matter.
    Chairman Johnson. So this is not some devious plot on your 
part. One final question here--I am just going to go a little 
over time. I think it is important you describe the operational 
changes you are making to try and start curbing in some of 
these excess costs. Four billion of overtime and overtime 
penalties, about making sure that the system adheres to its 
time deadlines and what effect that has on mail delivery.
    Mr. DeJoy. Yes. Thank you, Senator. When I was awarded to 
the position, I spent the first 3 weeks, even before I joined 
really studying the organization, trying to get an 
understanding of, what was driving this, how decisions were 
made and what the network looked like, and how the mail moved 
through the process. I spent hundreds and hundreds of hours 
before I arrived, and then when I got here, working with the 
management team.
    The first big change I embarked upon is how do I get the 
organization, the management team, the structure, to align with 
what, in my analysis, I felt that we had 600,000 people 
reporting to one person and other executives doing accessorial 
types of activities. Important but not integrated into the 
operational activity.
    So I worked with the management team, both collectively and 
individually, to look at our functional lines, and we together 
reorganized the organization to move forward on process 
improvements, improving service, and garnering new business, 
new revenue and costs. So that was the one big change I worked 
on when I got here.
    The other change, the day I was sworn in I received a 
report from the Office of Inspector General (OIG) that spoke 
about the things that you were talking about--late deliveries, 
late dispatch, extra trips, and all the time and costs 
associated around this that approximated $4 billion. We were 
facing--I had $13 billion in cash and $12.5 billion of payments 
to make in the next 9 months, and no help in sight. We had no 
help in sight. So I needed to look at a positive impact on cost 
savings that improved the business.
    The transportation schedule. I will tell you, we run about 
35,000 to 40,000 trips a day, and 12 percent of those trips 
were late, and we were running another 5,000 trips a day in 
extra trips. Federal Express (FedEx), United Parcel Service 
(UPS), everybody runs their trucks on time. Right? That is what 
glues the whole network together--our collection process to our 
delivery process. If that is not running on schedule--and that 
was not my, Louis DeJoy's schedule, that was the Postal 
Service's schedule that was connected to all the delivery 
points, the 161 million delivery points that we deliver to each 
day, that had to be on time. To get our carriers out on time, 
to make the deliveries on time so they can get back during the 
day instead of the night, and that was the transportation 
network was the glue that keeps everything together, and I 
worked with the team. We had many operating people involved 
with the team. We had all the area vice presidents involved 
with this change.
    I submitted in my report this chart\1\ here, which shows 
that we went from 88 percent on-time to 97 percent on-time 
delivery. All that mail that was sitting on docks got advanced, 
and our late trips dropped from 3,500 a day to 600 a day. 
Within a week, we made that change.
---------------------------------------------------------------------------
    \1\ The chart referenced by Mr. DeJoy appears in the Appendix on 
page 56.
---------------------------------------------------------------------------
    Unfortunately, our production processing within the plants 
was not fully aligned with this established schedule, so we had 
some delays in the mail. Our recovery process in this should 
have been a few days and it has amounted to be a few weeks.
    But the change that I made was run to our schedule, run to 
our transportation schedule. I believe we will get at least $1 
billion of savings out of that going forward, and this is the 
key connectivity to improving our service. Once we get all the 
mail on those trucks, then 97 or 98 percent of the mail that we 
move around the country will be getting to its destination 
point on time. That was not the case. It was significant, 
substantially less than that prior to my arrival.
    Those are the two changes, Committee, that I have made 
since I have been here.
    Chairman Johnson. Thank you Mr. Postmaster General. I think 
you should be commended for this type of initiative, not 
condemned. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman, and Mr. DeJoy, 
again, thank you for being here today.
    I just want to start off, before asking some questions, 
just making it very clear that the men and women who work at 
the Postal Service, who check in every day to do their jobs, do 
it with professionalism, with integrity, and a passion to move 
the mail as quickly and as efficiently as possible. But I think 
the postal workers, the mail handlers, the letter carriers, 
they are doing a great job. They are clearly essential workers 
each and every day.
    But as we have been going through this issue, and I have 
talked to many of those folks across my State, they have grown 
increasingly frustrated with some of the recent policies that 
have come in place, which they say is nothing that they have 
seen in the past, and they believe the mail has been piling up 
in ways that it should not, and it needs to be addressed. But 
these are management changes. These are policy changes. It is 
not the men and women who are on the front line doing this work 
every day.
    So Postmaster General DeJoy, you have already heard me in 
my opening comments talking about the fact that I have received 
over 7,500 complaints from folks all across Michigan, but 
really across the country. Folks have sent in their concerns to 
me. Earlier in my opening statement I shared some stories of 
hardships from folks, both Beth and Mary, their challenges in 
Michigan.
    I think I heard this in the last answer. You acknowledge 
that some of the changes that were put in place have delayed 
the mail, and with a delay in mail people can sometimes be 
hurt. Is that true?
    Mr. DeJoy. Senator, first of all I do recognize the quality 
capability of the American postal worker. That is one of the 
reasons that I am here is to help, as well as to the Postal 
Service's key role in serving the American public.
    Yes, sir, I do recognize that some of these--there have 
been two changes. The organizational change I do not believe 
has any impact on what we have done. The transportation change, 
getting in compliance with our schedule----
    Senator Peters. Mr. DeJoy, let me just jump in. I do not 
want to cut you off but I will get into those issues, because I 
want you to elaborate a little bit further. But there have been 
delays. You will recognize that. It is clear what we are 
seeing. The mail has been delayed, and I have spent over a 
month asking you to provide some documentation, in my oversight 
function here on this Committee. How you made these decisions, 
what kind of analysis, what sort of data was put in place, and 
how that information impacted some of the changes you have. 
Your staff has repeatedly not answered those questions, and so 
certainly that lack of transparency, I think, is unacceptable.
    What I have uncovered, though, from what little data is 
made public by the Postal Service is on-time mail delivery. I 
have my chart\1\ as well here too, which is from the Eastern 
Division. This is what you give to your business customers. If 
you look at this line here--it is probably hard to see, but 
there is a red line, which you can see, dipping dramatically. 
There is a flat line along the top of the chart and then it 
drops. Around July 11th you start seeing the drop. July 18th it 
falls dramatically. So that is a pretty big drop in on-time 
mail delivery that we are seeing.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Peters appear in the Appendix 
on page 65.
---------------------------------------------------------------------------
    I have asked, three times, since July 17th, for records 
relating to these service changes, and what I am hearing from 
our letter carriers and postal workers and what I am seeing in 
the chart that you actually post on your website of a 
significant drop of mail deliveries, and yet I do not get an 
answer. Will you commit to giving me these documents which have 
to be readily available to the Postal Service, by this Sunday? 
Can we get those documents to get a sense of what went into 
these decisions and what you are seeing in terms of mail 
delivery?
    Mr. DeJoy. I will meet with our staff and get what 
documents with regard to this change. But the change, Senator, 
was to adhere to the transportation schedule. That was the 
change.
    Senator Peters. Obviously you have all that documented. I 
would love to see the documents as to how that was done, the 
data supporting that.
    Mr. DeJoy. If I can add this, too, and certainly there was 
a slow-down in the mail when our production did not meet the 
schedule. But also, Senator, our employees are experiencing the 
COVID pandemic also, and we have a significant issue in 
employee availability in many parts of the country that are 
also leading to delays in delivery in mail.
    Senator Peters. Let me turn to your recent announcement 
that you made this week, that you are suspending some of the 
changes that you had made over the last month. I believe the 
statement is fairly vague and it raises some additional 
questions. So I want to just be clear. These will be yes or no, 
just so we know exactly what was intended by that.
    Are you suspending your policy eliminating extra trips? Yes 
or no.
    Mr. DeJoy. No. First of all, the policy was not to 
eliminate extra trips. It was to mitigate extra trips.
    Senator Peters. OK. So no to that. We are being told that 
you are limiting overtime, and this could possibly add to 
backlogs. Are you limiting overtime or is that being suspended 
right now and people will work overtime, if necessary, to move 
the mail out efficiently every single day?
    Mr. DeJoy. Senator, we never eliminated overtime.
    Senator Peters. It has been curtailed significantly, is 
what I understand.
    Mr. DeJoy. It has not been curtailed by me or the 
leadership team.
    Senator Peters. Curtailed significantly. It's gone down. It 
has been limited. Will you commit to----
    Mr. DeJoy. Senator, since I have been here we have spent 
$700 million on overtime. Overtime runs in the 13 percent rate 
before I got here and it runs at a 13 percent rate now. I did 
not suspend overtime.
    Senator Peters. So if you have a policy and you can submit 
that to me I would appreciate it.
    Will you commit that there will be no post office closures 
or suspensions before November 3rd?
    Mr. DeJoy. I confirm post office closures was not a 
directive I gave. That was around before I got it. There was a 
process to that. When I found out about it, and it had the 
reaction that we did, I have suspended that until after the 
election.
    Senator Peters. We have heard about the sorters. You 
addressed that earlier. Will you be bringing back any mail 
sorting machines that have been removed since you have become 
Postmaster General? Will any of those come back?
    Mr. DeJoy. There is no intention to do that. They are not 
needed, sir.
    Senator Peters. So you will not bring back any processors?
    Mr. DeJoy. They are not needed, sir.
    Senator Peters. OK. I have questions about independence and 
transparency. Prior to implementing the changes that you put 
forth in the postal system, did you discuss those changes or 
their potential impact on the November election with the 
President or anyone at the White House? And I remind you, you 
are under oath.
    Mr. DeJoy. I have never spoken to the President about the 
Postal Service other than to congratulating me when I accepted 
the position.
    Senator Peters. Did you speak to or discuss any of these 
changes with Secretary Steven Mnuchin?
    Mr. DeJoy. During the discussion in negotiating the note I 
told him I am working on a plan, but I never discussed the 
changes that I made. I just said I am working on a plan to 
improve service and gain cost efficiencies. But no grave detail 
of him--that was about it.
    Senator Peters. Prior to implementing the changes, did you 
discuss these changes or their impact on the election with any 
Trump campaign officials?
    Mr. DeJoy. No, sir. Sir, these changes, and our total 
analysis here and going forward--and remember, I am one new 
person in the organization, with the whole structure around me, 
an operating structure, an executive team around me that are 
involved in these decisions, OK? But moving forward with trying 
to have any negative impact on the election is an outrageous 
claim.
    Senator Peters. Just one final one, Mr. Chairman. Did you 
ever discuss of this with Mark Meadows, any of these changes of 
what you are doing?
    Mr. DeJoy. No.
    Senator Peters. You have never had discussions since you--
--
    Mr. DeJoy. I have not discussed anything with Mark Meadows. 
I have not spoken to Mark Meadows up until maybe last week, was 
the first time I spoke with him in a while.
    Senator Peters. So finally, you will give us your word 
today, under oath, that you have not taken any action 
whatsoever in your capacity as Postmaster General, for any 
political reason or at the suggestion of any administration 
officials?
    Mr. DeJoy. Sir, I will tell you my first election mail 
meeting, I instructed the organization, the whole team around 
us and out in the field, that whatever efforts we would have, 
double them. I was greatly concerned about all the political 
noise that we were hearing, and we have had--I have had weekly 
reviews on this since before this--all the excitement came out. 
We are very committed. The board is committed. The postal 
workers are committed. The union leadership is committed to 
having a successful election, and the insinuation is, quite 
frankly, outrageous.
    Senator Peters. Just one final thing, Mr. Chairman, is as 
we get into the election now there has been concern that I am 
hearing from State and local governments about First-Class 
mail. Do I have your word that you are not going to mandate 
that States send out any ballots using the more expensive 
First-Class mail, and will you continue the processes and 
procedures to allow election mail to move as expeditiously as 
possible and treat it like first class?
    Mr. DeJoy. Yes, sir. We will deploy processes and 
procedures that advance any election mail, in some cases ahead 
of First-Class mail.
    Senator Peters. You will not charge local governments for 
the First-Class mail? They can continue the process that they 
have done in the past?
    Mr. DeJoy. I do not get to charge anybody, but no, we are 
not going to change any rates.
    Senator Peters. Great. Thank you for the time. Thank you 
for the indulgence, Mr. Chairman, for the extra time. I 
appreciate it.
    Chairman Johnson. Thanks, Senator Peters. We did allow 7-
minute rounds. Both Senator Peters and I went a little over. We 
are going to adhere to the 7 minutes to other Members. The 
order of questioning will be Senator Portman, Carper, Lankford, 
Hassan, Scott, Rosen, and then Sinema. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Chairman, and thank you and to 
Senator Peters for holding the hearing. It is very important. 
It is timely. Obviously, all of us want to see our Postal 
Service work and work well. And let me just give a shout-out to 
David Janus, who is our letter carrier, and to all the letter 
carriers and all the postal workers, because I do think, 
particularly during this pandemic, they are more appreciated 
than ever. And so the men and women who you lead, Mr. DeJoy, 
please pass along to them our thanks.
    I like having this hearing now, because I think there has 
been a lot of misinformation out there, and I like getting to 
the facts. One of the facts I have learned this morning is that 
you started 67 days ago. And much of what we have been talking 
about, in the media at least, including the blue boxes and 
sorting machines, that happened before you got there and it was 
part of a plan. I knew the former Postmaster General. He came 
up through the ranks. He was not a political person at all. 
Anyway, that is helpful to know, that that is what is going on.
    It also helpful to know that you were appointed by the 
postal Board of Governors, and that that is a bipartisan group. 
In fact, we confirmed those people, and it was a unanimous 
selection, and I guess it is based on your being a logistics 
expert. And just hearing you this morning I can tell you have a 
passion for the logistics side of thing.
    I also know that the long-term financial picture for the 
post office, Postal Service, is not pretty. By the way, that 
has been true for a long time. And that is not really something 
that a Postmaster General can do much about. It requires 
legislation. Senator Collins and Senator Feinstein have a bill, 
as an example right now, that provides for some reforms and 
some additional funding. Everybody knows it is in trouble. 
Everybody knows we have to deal with this issue. And so 
although I am going to ask you some tough questions, and others 
will, really, a lot of this comes back on to Congress and not 
doing its job, in terms of the longer-term financial picture.
    But the immediate issue is to be sure that these elections 
work well. I appreciate the fact that you said this morning 
that that is going to be your top priority between now and the 
election.
    Every one of us on this panel, I hope, want to be sure that 
we have the ability to have an election that is well run, where 
people have their votes counted, and many are going to be using 
the Postal Service. Let me start, Mr. DeJoy, by just asking you 
a general question. Do you support absentee voting, and do you 
support voting by mail, generally?
    Mr. DeJoy. I am going to vote by mail. I voted by mail for 
a number of years. The Postal Service will deliver every ballot 
and process every ballot in time, that it receives.
    Senator Portman. I appreciate that. So you do support 
voting by mail?
    Mr. DeJoy. I do. I think the American public should be able 
to vote by mail, and the Postal Service will support it. So I 
guess that is yes.
    Senator Portman. Yes. The States are going to decide this, 
not the Congress or not the post office, and many States are 
going to do it. In Ohio we have had absentee voting for a 
couple of decades that is no fault, meaning that you do not 
have to give a reason, and it works quite well.
    I vote every year by absentee, because I do not know where 
the heck I am going to be, in Washington or in Ohio, based on 
our schedule. So it has worked well and, we also are going to 
have, in Ohio, a lot of other ways for people to vote. We are 
going to be sure that it is easy to vote in Ohio, and it is 
hard to cheat in Ohio, and I think that is the important thing.
    There has been a lot of news coverage about the Postal 
Service sending letters to 46 States, including Ohio and D.C., 
to let them know they cannot guarantee all ballots cast by mail 
will arrive on time. Is this due to a lack of funding, which is 
what many are saying, or is it due to State laws on voting and 
the time it takes to turn around receiving and delivering the 
ballots?
    Mr. DeJoy. Senator, this was not a change from anything 
that we have done in previous years. It was just more detailed 
and more emphasis put on it, partly because of the expected 
rise in vote by mail and also the pandemic. And what the team 
set out to do is make the election boards, and then eventually 
the American public, pretty simply, what our processes were. 
Therefore, to guarantee that if you follow these processes--
there was no extra herculean efforts on our part to get your 
ballot in, which therefore mitigated the risk of it potentially 
not getting there. So mailing----
    Senator Portman. I think that is important to note, that 
this is something that has been a problem for years, including 
previous elections. You sent out warnings in previous 
elections. And look, I think the post office has got to 
coordinate better with State election systems. I think State 
elections systems have to coordinate better with the post 
office.
    I mean, in Ohio, as an example, the timeframe between when 
you can cast your ballot and when it is postmarked--and you can 
get a ballot as late as Saturday before the election--and, to 
get that to the post office and back to you and then date-
stamped before Monday is very hard to do, logistically. I think 
that is one of the things that your letter pointed out was to 
these State system, be sure and leave adequate time. Is that 
accurate?
    Mr. DeJoy. Yes, sir. First of all, it was not my letter. It 
was a letter from our general counsel. But yes, to point out 
all the different variations that we could experience and how 
fast we could process it. But yes, there are times, we get the 
ballots--ballots were sent out the day before the election. It 
is almost impossible for us to--for the voter to vote--for the 
ballot to get to the voter, for the voter to vote, and for it 
to get back in time for the election.
    So this was a very well-thought-out effort to safeguard the 
election, not to get in the way of--safeguard the processing of 
ballots, not to get in the way of it.
    Senator Portman. What advice would you give voters? This is 
an opportunity for you to speak to the voters of Ohio and the 
country. Would you advise them to wait until the last minute or 
would you advise them to at least the week?
    Mr. DeJoy. The general word around here is vote early. Vote 
early.
    Senator Portman. Yes. I think that is really important to 
tell people, because, again, under Ohio's law and a lot of 
other laws the timeframe is really close. If you request an 
absentee ballot you have to be sure that it can be delivered in 
time.
    I am concerned about the delays that we have seen, in Ohio 
and elsewhere. We have a number of veterans who have contacted 
us and said they were not able to get their medication, and 
there are just some heartbreaking stories. One is a 70-year-
old, served in Vietnam, has chronic obstructive pulmonary 
disease (COPD), has trouble breathing. The inhaler refill was 
mailed through the Postal Service. Due to delays he ran out of 
it while waiting for it to arrive. And then his insurance said, 
``You know what? We are not going to pay for another refill to 
be filled because it has already been shipped through the 
Postal Service.'' He cannot afford to pay for another emergency 
refill personally.
    Let me ask you about that, particularly the veterans' 
medications that are shipped through the mail. Are you focused 
on that issue, and what can we do to correct that problem?
    Mr. DeJoy. Senator, first of all we are working here 
feverishly to get the system running at stability and also to 
get more--hire more workers to handle the delivery process. And 
we all feel bad about, what the dip in our service has been.
    We serve 161 million people. We still deliver at 99.5 
percent of the time. We have significant efforts to continue to 
improve on that process, and everybody is working here 
feverishly to get that right.
    Senator Portman. I hope you will, and let's ensure these 
medications are delivered in time and be sure that when the 
production does not meet the transportation schedule, as you 
said earlier, that there are some efforts made to align those 
two. Because it is a lifeline for people, all over the country, 
particularly in our rural areas. I thank you for your service 
and for the answers you have given today.
    Chairman Johnson. Thanks, Senator Portman. Again, I want to 
just remind our Committee Members, please keep your questioning 
as well as factoring in the answers, trying to keep them within 
the 7 minutes.
    Senator Carper. Is Senator Carper there?
    We will move on to Senator Lankford.
    Senator Peters. Mr. Chairman, I think Senator Carper is 
there. I think he is trying to be able to queue it all up right 
now.
    Chairman Johnson. Senator Carper, can you unmute?
    Senator Carper. I am unmuted.
    Chairman Johnson. OK. There we go. We do not want to be on 
TV again.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks so much for scheduling this hearing. 
I urged you to do this 3 weeks ago. You agreed to do it and I 
am grateful that you have. To the Postmaster General, thank you 
for finally returning my call. I called you for like 3 weeks, 
trying to get you to return my call after you had taken office. 
Thank you for finally returning our call and talking with us 
last week.
    You might be wondering, Mr. DeJoy, why there are some 
questions and skepticism here. In my own office, we get a 
constituent services report every week. We are seeing a steady 
increase in concerns, complaints about the Postal Service. And 
it is not just my office. It is Senate offices and House 
offices all over the country. Frankly, they coincided with the 
time that you took office.
    Even this morning I just got a message from Joe Manchin, 
Senator from West Virginia, who had been, earlier this week, in 
the Charleston mail distribution center, talking about how all 
this equipment, the sorting equipment, has been taken out. They 
serve five States from out of that place. And so it is not just 
little Delaware. It is all over the country. Maybe it is just a 
coincidence. I am not so sure.
    But here is why we are skeptical. We have a President who 
does not want to have vote by mail. We have a President who 
would like to suppress the vote. We have a President who would 
like to see the Postal Service not do well. I worked for almost 
20 years on this Committee, to try to make sure we have a 
vibrant, active, meaningful Postal Service. You come from 
Greensboro, North Carolina.
    Mr. DeJoy. Yes.
    Senator Carper. Just south of where I grew up, in Danville, 
Virginia. We had voter suppression in this country almost from 
the get-go, even though our first Postmaster General, Benjamin 
Franklin, said, ``No, we are not going to do that. We are going 
to let everybody have freedom and the right to choose their own 
votes.'' It has not been that way. Women did not get to vote. 
Blacks did not get to vote. We still have voter suppression. 
The last congressional election they had in North Carolina, you 
know what happened? Half the people voted for Democratic 
candidates for Congress. Do you know how many Democrats were 
selected out of 13 House seats? Three. I mean, we have seen 
poll taxes, we have seen literacy tests, all of this stuff.
    When I see what is going on with the President who wants to 
degrade the Postal Service, wants to get rid of vote by mail, 
we should not be surprised that we are alarmed when we see the 
kind of degraded service that we are seeing across the country. 
It was not that long ago we had overnight mail service in a 
metropolitan area. It was not that long ago we had, from coast 
to coast, mail delivered within 3 days, and we do not have that 
anymore. So if people seem skeptical, they have a right to be 
skeptical.
    After the public uproar that we have seen here in my State 
and other States about the delays and failure to deliver the 
mail, you committed to freeze additional operational changes 
until after the election. Good. But we are going to need more 
information than that, especially given reports that came out 
last night showing that you and your team are actually 
considering more extreme changes than those we have seen so 
far, including changes that will slow down the mail even 
furthermore, post office and plant closings, massive service 
reductions to Alaska, Hawaii, and Puerto Rico, making mail more 
expensive to the U.S. citizens living there, price changes that 
would nearly double the cost of voting by mail, dramatic price 
hikes on packages that will disproportionately impact small 
businesses and rural communities that rely on the Postal 
Service, while erasing your competitive advantage with FedEx 
and UPS.
    We need to be worried about this, and I am. I do not ask a 
lot of yes-or-no questions. I am going to ask you a couple 
today, and I ask you to just give me a simple yes or no answer. 
You will have an opportunity in responses for the record to 
expand on those, but I am going to ask you for yes or no 
answers.
    Yes or no, are you considering the dramatic service changes 
that I just outlined, which we just learned about in the last 
48 hours? Are you considering those dramatic service changes? 
Just yes or no.
    Mr. DeJoy. Senator, there is a dramatic----
    Senator Carper. I am asking for a yes or no answer.
    Mr. DeJoy. We are considering----
    Senator Carper. Distinctly yes or no.
    Mr. DeJoy [continuing]. We are considering dramatic changes 
to improve the service to the American people. Yes.
    Senator Carper. Yes or no, will you restore the mail 
collection and processing capacity that the Postal Service has 
lost in recent weeks during your tenure?
    Mr. DeJoy. Senator, as I said, I did not direct that. I 
stopped it. It is insignificant. It is not material to anything 
that we do, and we are sticking with where we are at right now.
    Senator Carper. Recently, the President was caught red-
handed when he admitted to not wanting the Postal Service to 
have additional resources, because the Postal Service would use 
these resources to enable election mail. And when asked about 
providing necessary relief, the President stated, ``If we don't 
make a deal''--that is a deal with the Congress--``that means 
they do not get the money,'' they being the Postal Service. 
``That means they do not get universal mail-in voting. They 
just can't have it.'' No wonder we are somewhat skeptical and 
dubious.
    My understanding is you have had more than a passing 
acquaintance with this President. My understanding is you have 
been a huge supporter, financially, of the President. My 
understanding is when we were going to have a convention in 
Charlotte, North Carolina, you were heavily involved in leading 
the raising of money for that convention. No wonder we are a 
little bit skeptical about this, when we have a President 
talking down the Postal Service and talking down vote by mail.
    Another yes or no, and you can expand on the record on 
this. Will you remain----
    Mr. DeJoy. Senator----
    [Simultaneous discussion.]
    Senator Carper [continuing]. And make certain----
    Mr. DeJoy [continuing]. Political matters----
    Senator Carper [continuing]. Decisions that support the 
American people first? Will you? Services that support the 
American people having fast, efficient, and affordable mail 
service, especially with regard to mail-in ballots? Will you 
remain independent from this administration? Will you remain 
independent?
    Mr. DeJoy. Yes, I will remain independent.
    Senator Carper. Thank you very much. Mr. DeJoy, during our 
call earlier this week you said you support additional cash 
assistance for the Postal Service. So do we. The Postal Service 
has roughly $15 billion of cash on hand, and a $10 billion line 
of credit that came with very troubling conditions, dictated by 
the administration. The Postal Service has had massive declines 
in First-Class mail. We know that. It averaged 15 to 20 percent 
below last year's First-Class mail volume. The Postal Service 
package volume is higher, though, that has sustained it through 
the pandemic. My guess is those volumes will come down somewhat 
after the pandemic.
    All this is to say the Postal Service's $15 billion in cash 
balance could quickly disappear, and I believe Congress needs 
to approve the Board of Governors' $15 billion request from 
earlier this year to cover loss to COVID.
    Last yes-or-no question. Do you support a Federal 
appropriation to the Postal Service to cover its COVID-related 
losses? Yes or no? Do you support a Federal appropriation to 
the Postal Service to cover its COVID-related losses?
    Mr. DeJoy. Yes. COVID-related losses I do support.
    Senator Carper. Thank you very much.
    Mr. Postmaster General, my family has had heavy military 
involvement throughout our lives. I am the last
    Vietnam veteran serving in the U.S. Senate. My mother's 
youngest brother died in a kamikaze attack in 1944, on an 
aircraft carrier in the Western Pacific. He gave his life for 
this country. My grandmother is an American Gold Star Mother. 
My father is veteran. I am a veteran. We have generation after 
generation of Americans who have been willing to risk their 
lives, laid down their lives, so we will have the right to 
vote.
    We have a lot of people who are sick and afraid of going 
out and voting this year because they do not want to stand in 
lines and come down with a virus that could take their lives. 
This is a serious matter. I just want to urge you to work with 
us, not be apart from us, to not return our calls. Work with us 
as we attack the needs to build the kind of Postal Service that 
we can all be proud of. Thanks very much.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Chairman, thank you. Mr. DeJoy, thank you 
for your service. From what I have heard so far today 
apparently the post office never had any issues, there was 
never any delays, there was never any mail that was late, there 
were never any financial problems, there was never any 
challenge to mail-in votings until 65 days ago, when you 
arrived, and then apparently all chaos has broken out in the 
post office in the last 2 months. But before that there seemed 
to be no complaint about the post office ever.
    I do want to thank you for your service. I want to thank 
the men and women that are around the country that do a 
remarkable job every day. Those folks in the unions, those 
folks that are taking care of us and getting things out, 
getting medicine, taking care of First-Class mail, taking care 
of all those things. I appreciate your service. I appreciate 
the fact that you have stepped up to be able to help lead an 
organization that desperately needs some help, that Congress 
has, for two decades, pounded on postmasters on why they are 
not doing reforms and why we have not found more efficiencies.
    You have stepped into this role and have taken, it looks 
like the work from the inspector general, the work from the 
Regulatory Commission, and have said let's start implementing 
some of these things. Now Congress seems to be shifting from 
beating up on postmasters for not doing work to now beating up 
on you for actually doing the work. So I do want to say thanks 
for stepping up and taking the risk to actually take this on.
    I do want to run through several questions. Some of them 
have not been addressed yet. There was a series of stories that 
came out and a trending on social media that you were locking 
up the post boxes in Burbank to prevent people from voting. 
Were you looking up the boxes in Burbank to keep people from 
voting?
    Mr. DeJoy. Senator, the stories that I have heard of my 
ability and the places I am able to get to in the same day is 
just remarkable. So no, I am not locking up any--I would have 
nothing to do with collection boxes.
    Senator Lankford. So you mentioned earlier that it has been 
35,000 of the blue boxes that have been retired over the past 
10 years. So apparently any blue boxes that have been retired 
over the past 10 years are your responsibility over the last 65 
days. You had mentioned before about some of the blue boxes 
being retired. Are they still going to be retired between now 
and the election, or will they be retired in the future?
    Mr. DeJoy. My commitment to the Committee and the 
leadership and the American people is we have stopped. The day 
I put the statement out we directed everybody to stop reducing 
postal hours, stop, bringing back collection boxes, stop 
shutting down machines, and that was basically what we did. So 
from now on----
    Senator Lankford. So you stopped the----
    Mr. DeJoy. Yes.
    Senator Lankford [continuing]. And you stopped that until 
the election. Will that pick back up after the election? 
Because one of the issues that you brought up before was about 
the sorting machines. Some of these sorting machines are older. 
Some of the sorting machines are not needed anymore. Will that 
just stop forever? What I am trying to figure out is are we 
still going to work on trying to build in efficiencies in the 
post office? This has been an issue for a long time, to try to 
get us back into balance.
    Mr. DeJoy. Senator, thank you for the opportunity--right 
now the law, the legislation is that we deliver to 161 million 
addresses, 6 days a week. I am committed to that. I believe 
that is the strength of the Postal Service, and that we be 
self-sustaining. Those are the two pieces of legislation that I 
am working toward. We are not self-sustained. We have a $10 
billion shortfall, and over the next 10 years we will have a 
$245 billion shortfall.
    So we need to, and our management team and our board, there 
is a path that we are planning, OK, with the help of some 
legislation, with some cost impacts, with some new revenue 
strategies, that will help--and some pricing freedom from the 
PRC, we believe we have a plan to do that.
    But one thing that is not in the plan is not doing anything 
after the election. It is an ambitious plan, because we have 
$10 billion to bridge. Now the plan has not been finalized. We 
have hundreds of initiatives, like take the Alaska bypass plan 
discussion. That is an item on the table. That is an unfunded 
mandate. It costs us like $500 million a year. What I asked for 
was all the unfunded mandates. That is a way for us to get 
healthy--pay something for the unfunded mandates. If we just 
throw $25 billion at us this year and we do not do anything, we 
will be back in 2 years. Then maybe we should change the 
legislation and not make us be self-sustaining.
    But as a leadership team and a board, that is what our 
mission is, to be self-sustaining and deliver at a high level 
of precision, and I am committed to both. I am committed to 
both, and I think both can be done with a little help from the 
Congress and from the Postal Regulatory Commission.
    Senator Lankford. Congress has been unwilling to be able to 
act on this for a very long time. It has been over a decade 
Congress has not discussed any kind of reforms in the post 
office. But it always seems to boil down to will that change 
distribution areas that may or may not be needed in a State 
that I live in, or will it change any other post office 
structure that I am familiar with? If it changes my area then I 
want to be able to block it. And so it has been a great 
challenge.
    I have also heard from multiple folks saying the post 
office has now so severely cut that they cannot meet the 
capacity to actually get ballots out, and folks in rural areas, 
and folks in urban areas, will they be able to get ballots out? 
I have seen your letter. That was the same as the letter in 
2016 the post office sent out, saying, ``Hey, be advised, 
States. You need to send things out early.'' That is helpful. 
Thanks for actually doing that, and you should not be 
criticized for that. You should be encouraged to be able to do 
that.
    But my question is, folks have challenged me and said there 
is not going to be enough capacity for elections. Will you have 
enough capacity again for Christmas and for Mother's Day? 
Because my understanding is Christmas and Mother's Day are the 
biggest capacity times for First-Class mail. Do you have 
capacity now for Christmas and Mother's Day?
    Mr. DeJoy. Sir, thank you. Yes, we have capacity for 
Christmas and Mother's Day.
    Senator Lankford. I actually went back and looked at last 
year. The week of December 16th the post office delivered 2.5 
billion pieces of First-Class mail just that 1 week of December 
16th of last year. That is a pretty remarkable feat, to get 2.5 
billion pieces of First-Class mail delivered in one single 
week.
    So you know right now you have enough capacity to be able 
to handle the elections without slowing it down?
    Mr. DeJoy. Yes, sir, and it is more than that. Besides just 
the capacity, the intent, the extra activities that the whole 
organization is going through, between our postal union 
leaders, our board, the executive management team here, we are 
focused on, besides just having the capacity, to execute, to 
react to whatever conditions exist at that particular point in 
time, up to and including the pandemic, which likely will still 
be having some impacts.
    So I think the American people can feel comfortable that 
the Postal Service will deliver on this election.
    Senator Lankford. Thank you.
    Chairman Johnson. Thank you, Senator Lankford. Senator 
Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair. Thank you, Ranking 
Member Peters, for having this hearing. Thank you, Mr. DeJoy, 
for your willingness to appear before our committee today. My 
time is short this morning, and because I have been told you 
will not be staying for a second round of questions I would 
appreciate brief responses.
    Mr. DeJoy, I sent you a letter last week detailing stories 
from Granite Staters about delays in their mail, and I will 
note a huge spike in calls to my office since mid-July about 
the Postal Service and delays. For so many of our 
servicemembers, veterans, people who experience disabilities, 
and rural Americans, their local post office is their lifeline. 
I will note that the change in volume you are seeing does not 
change the need for timely delivery of the essential, necessary 
items that the American public relies on the post office for.
    For example, one Manchester couple fills prescriptions 
through their Veterans Affairs (VA) benefits, and they wrote, 
``There has been a noticeable slowdown in mail delivery. Mail 
delays have caused me to ration my medication. I start cutting 
back on my dosage to half pills or skipping alternate days to 
make them last. Some of my pills are crucial. My cardiac and 
diabetic medications need to be on a strict protocol.''
    Will you ensure that any further changes that you make to 
postal operations do not delay access to medications and other 
necessities? Yes or no.
    Mr. DeJoy. Yes. Yes, Senator, and I look forward to working 
with you on legislation to help this type of service not reach 
into the future.
    Senator Hassan. Thank you. Now I want to move to elections 
again. I am glad for some of the statements and actions you 
have taken. We all know how important voting by mail is 
usually, and this year even more so. Some States are starting 
to mail out general election ballots on September 4th, just 2 
weeks from today.
    You and the Postal Service general counsel have written 
letters, that we have talked about this morning, about your 
plans to deal with election mail. You wrote last week that the 
Postal Service will, ``utilize additional resources and 
maximize our efforts during the 10 days prior to the election 
to ensure the processing and delivery of all election mail 
within our system.''
    Do the letters that you and general counsel have sent to 
Congress so far contain your full plan for ensuring the 
processing and delivery of all election mail, or do you have a 
more detailed operational plan for the additional resources and 
efforts you alluded to?
    Mr. DeJoy. The letter that has been sent to the States from 
general counsel speaks about mail classifications and how 
that----
    Senator Hassan. Right. Mr. DeJoy, I am just wondering, do 
you have a detailed plan about how you are going to ensure the 
kind of delivery that Americans count on for voting by mail? Do 
you have a more detailed plan than what is in your letter? Yes 
or no.
    Mr. DeJoy. There are detailed processes that we are going 
through, and there are going to be expanded plans to that. We 
just announced the expanded committee, election committee, 
within the operation, and our board has established one. But 
there are detailed plans that we go through in every election, 
and with regard to----
    Senator Hassan. Again, could you share those with Congress, 
and could you share them by Sunday night so we can see what 
they are, please?
    Mr. DeJoy. I do not think I will have the complete plan by 
Sunday night. We are just putting these committees together. 
But we can try and--well, today is Friday. I have to check and 
we will get back to you.
    Senator Hassan. All right. I would appreciate them by 
Sunday night, if possible, by the end of the next week, as I 
know that September 4th some of the ballots are going to start 
going out.
    Last year the Postal Service inspector general interviewed 
managers in postal facilities across the country about handling 
elections. The inspector general found that facilities 
typically process political mail as First-Class mail, 
delivering more than 95 percent of election mail with 1 to 3 
days for the 2018 midterms. Yes or no, will you commit to the 
goal of delivering at least 95 percent of election mail within 
1 to 3 days this year, the same as the Postal Service did in 
2018?
    Mr. DeJoy. Yes, ma'am.
    Senator Hassan. Thank you. Now I want to move on to the 
issue of the decommissioning of sorting machines. At the 
Manchester processing and distribution facility in my State, 
four sorting machines have been taken out of service. Three of 
them are just sitting there, and I am told that one of them has 
been dismantled and sold to a company in Pennsylvania for scrap 
metal.
    The Manchester facility only has one other machine that can 
do the work of the machine that has been sold for scrap. If 
that machine fails, like it did yesterday when I was talking to 
postal workers in my State, sorting stops and mail is delayed 
until the machine can be fixed. Although you have suspended the 
removal of sorting machines, the removed machines in Manchester 
have yet to be brought back in service or replaced, and you 
have said today that it is not necessary to do that and there 
are not any plans to do that. In fact, I understand that the 
Director of Maintenance Operations, Kevin Couch, sent an email 
on Tuesday directing local maintenance managers not to 
reconnect machines. Yes or no, is that true?
    Mr. DeJoy. I have no idea about that, ma'am. That is--
maintenance operations are still--they are maintenance 
operations within the districts. This whole process was new to 
me last week. I am sure there is logic behind what it is. I can 
find out about that, and I would be happy to get----
    Senator Hassan. OK. So you have already said, though, 
today, that it is not necessary. But look, when we have only 
one machine that can do a certain kind of sorting in our 
largest distribution center in the State of New Hampshire, and 
it breaks, and everything has to stop until it gets fixed 
again, that is not efficient, that delays delivery, and what I 
would like to get from you is a plan to make sure that you will 
commit to making sure that postal workers can deliver every 
piece of mail that comes into the distribution center on the 
same day it gets in there, which has been the practice in the 
past.
    By refusing to restart or replace these machines you are 
really sabotaging the Postal Service's ability to sort mail 
efficiently, and you are undermining postal workers' commitment 
to that every-day delivery. So would you commit to having your 
team look into this and get back to me in writing about what 
the plan is to get at least some of these decommissioned 
machines back up and running?
    Mr. DeJoy. Yes. First, Senator, I do not agree with the 
premise, but I will comply with your request.
    Senator Hassan. Thank you, and it would be helpful to get a 
response by the end of the week.
    Finally I will just, because I see that I am running out of 
time, I will ask a question for the record, because there are 
growing concerns that postal workers are being retaliated 
against when they speak to their Members of Congress or to the 
press about some of the shortages that they are seeing, or some 
of the delays they are seeing, some of the sabotage and 
undermining of timely delivering that they are seeing. I want 
to make sure that postal workers who are speaking to protect 
the interests of the American public that they serve with such 
diligence are not retaliated against for doing so. Can I have 
your commitment today that they will not be retaliated against 
for doing so?
    Mr. DeJoy. Yes, ma'am.
    Senator Hassan. Thank you, and thank you, Mr. Chair.
    Chairman Johnson. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Chairman Johnson, for holding 
this hearing today. Thank you, Postmaster General DeJoy, for 
being here. In Florida we have had vote by mail for a long 
time, and it has worked really well, and I think the post 
office in Florida has done a great job of making sure it has 
worked. I have had three elections and everyone--they have 
worked hard to make it happen.
    Mr. DeJoy, can you just talk about why you are uniquely 
qualified and what background you bring to being Postmaster 
General, and why you were picked by the board of the Postal 
Service?
    Mr. DeJoy. Thank you, Senator. There are two things you 
could look at, the two big actions that I have taken. I mean, 
the board will have to speak for their evaluation of me, but I 
do have--I have done--I think one of the things they like is my 
experience with large programs, large logistical 
transformations. I have done, back in the 1990s, over $3 
billion transformation of the postal network regarding mail 
transport equipment. I have done big projects for Boeing, big 
projects for Disney, big transformational projects for Verizon.
    So that particular, type of experience, I think, impressed 
them, and my commitment to public service, I think, impressed 
them, my engagement in community and the Nation.
    When you look at the steps--I did not come in here with a 
team. I did not bring any consultants. I work with the existing 
management team to create an organization that would look to 
move forward and give us self-help and drive improvements in 
our service, drive costs out of the system, and grow revenues. 
And that is something that I have done all my life.
    I built a big business from nothing. There are some 
accusations that this is not a business, but when you have to 
deliver service, and you have to be sustainable, the operating 
model needs to cover its costs. There is no other answer to 
that than that, and we need to take actions to do that. I have 
great experience at that.
    And part of, I think, why they liked me was I have a plan. 
I have a plan for the success of the Postal Service. I believe 
the 6-day-a-week delivery is an important aspect, a strength in 
us. Now our pieces for delivery are down under three now, from 
a few years ago, six or seven. Our goal is to get that back up. 
If you look on a chart and look at what our reach is on a daily 
basis, it is impressive. And we need to drive our costs out 
of--and this is well known--we need to drive our costs out of 
the network, get more efficient within our network, and get 
more pieces into our carriers' hands, and that is the success, 
along with, legislative help, that will be the future success 
for the Postal Service as we face a new economy.
    Senator Scott. So Mr. DeJoy, in your business life, did you 
have to perform for your customer? Did you have to be on time, 
and were you able to do that?
    Mr. DeJoy. Sir, our contracts had 99.98 percent performance 
metrics on everything we did. Yes, and I think there is--I 
think that the attitude and the energy is here in the desires 
here at the Postal Service to do that. I just think that we 
have not had the alignment and the expectation of that, and 
that is something that I bring to the table.
    Senator Scott. I mean, are you personally committed to 
doing everything you can to make sure they delivered on time 
and people get it, whether it is their medicine or their 
ballot, that they get it as quickly as they can, with realistic 
expectations?
    Mr. DeJoy. Yes, sir, I am.
    Senator Scott. So how does it make you feel when you have 
people out here that make these unsubstantiated claims that you 
personally have a goal to slow down the mail so ballots do not 
get to election offices on time, that you want to suppress the 
vote, that, you personally are interested in damaging the 
ability of the post office to do their job?
    Mr. DeJoy. Sir, that does not deter me at all. I am 
unbelievably proud and humble by the number of positive 
comments I get from employees and management team and the 
people from around America on my initiatives. It is really a 
farce to believe that we can sit here and do nothing.
    Senator Scott. Do you feel like you need a massive Federal 
bailout to be able to deliver the mail on Election Day?
    Mr. DeJoy. No, I do not need a massive--I do not need 
anything to deliver mail on Election Night. We do need 
legislative reform. We do need the freedom from the change in 
the PRC regulation. And we do need to be reimbursed for our 
costs. When you look at, during the COVID, during the pandemic, 
we still deliver to 99 percent of the American homes, with no 
revenue. The American postal worker was out there. This 
organization continued to perform, and it is why we have such 
high ratings. Our revenues were down. Other organizations would 
have stopped going to some of these rural areas and so forth. 
We continued to do what we are supposed to do, at a significant 
cost impact. I am one to try and get to a sustainable model, 
but in this case I believe we deserve some compensation for it.
    Senator Scott. One thing I think a lot of us would like to 
be able to do, if we are going to provide more funding to the 
post office, that I would like to work with you and others to 
find out what are the things that we ought to do to make the 
changes necessary to make sure that you can do your job in the 
future. So I appreciate any information you could provide that 
would allow us to do that.
    I just want to thank you for your commitment. I want to 
thank all the people that work at the post office. They work 
hard. But I appreciate your background, your commitment to 
excellence, and I hope you can do the same thing over time at 
the post office.
    Thank you, Chairman Johnson.
    Chairman Johnson. Thank you, Senator Scott. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Chairman Johnson, for holding 
this meeting here today, and thank you, Mr. DeJoy, for making 
yourself available.
    Before I ask some further questions I want to ask the 
Postmaster General, I would like to ask you this. We need 
transparency in the changes you have been making and in 
everything that you have discussed here today. Will you commit 
to providing this Committee with any and all transcripts or 
minutes of all closed, nonpublic Board of Governor meetings 
from this year, by this Sunday? Can you commit to that, sir?
    Mr. DeJoy. No.
    Senator Rosen. You will not commit to provide minutes-----
    Mr. DeJoy. I do not have the authority to do some of those 
things, and that is something that I would need to discuss with 
counsel and the board's counsel. So I cannot commit to that.
    Senator Rosen. We will be discussing that with you, but let 
us move on. We have limited time.
    Before I go with the rest of my questions I do want to 
thank the dedicated postal workers across this Nation, 
particularly here in my State of Nevada. I spoke with many of 
them yesterday, the majority of them veterans, veterans and 
their families. They have done years of dedicated service to 
this country, to this Nation, and they are very concerned.
    So, Mr. DeJoy, earlier this year you acknowledged you made 
operational changes to the Postal Service. You removed mail-
sorting machines. You have had reduction, elimination of 
overtime and late trips. In Las Vegas, where we are expecting 
mail volume to ramp up soon, our postal workers, the ones I 
spoke with yesterday, are reporting the removal of a sorting 
machine from our general mail facility, which is actually right 
down the street from my house.
    As a former programmer and systems analyst, I have a real 
strong appreciation for the data, so I want to talk about the 
data that you used to create these policies, and what you may 
or may not have analyzed before you have made these changes.
    During the pandemic, health officials have directed older 
Americans to stay at home for their own safety. That means for 
our seniors in Nevada and across the country, Postal Service is 
the only way they are going to receive their critical items--
life-saving prescriptions, household supplies, social security 
checks. For veterans, my colleagues have already mentioned 
this, it is a lifeline. Eighty percent of veterans' 
prescriptions are filled by the United States Postal Service. I 
have 225,000 veterans in Nevada, many of them relying on this 
for their timely delivery of life-saving medication.
    In small towns across Nevada, from Gabbs, which has a 
population of 269 people, to Shurz, a Tribal community with 658 
people, some of my larger rural communities, it is all they get 
is the Postal Service.
    So please, could you answer yes or no, effort of time. 
Before developing and implementing policy changes since 
assuming your role this year, did you conduct any specific 
analysis on how your changes would impact seniors? Yes or no, 
sir.
    Mr. DeJoy. So, ma'am, the policy changes that I----
    Senator Rosen. Yes or no, sir.
    Mr. DeJoy [continuing]. The policy changes that I embarked 
upon were not the ones that you identify in your----
    Senator Rosen. So you did not do any analysis to see how 
seniors would be impacted. OK, let us move on. Did you do an 
analysis to see how veterans might be impacted, knowing that so 
many of, actually, our postal workers are veterans. We employ 
so many veterans--that they are getting their medication, and 
they rely on 80 percent. Did you do a specific analysis to see 
how veterans would be impacted?
    Mr. DeJoy. The only change that I made, ma'am, was that the 
trucks leave on time. Theoretically, everyone should have 
gotten their mail faster.
    Senator Rosen. So can you look me in the eye, and all the 
Nevada veterans in the eye, all the Nevada seniors in the eye, 
and tell us that you will not continue the policies in the 
future that you know that will harm my seniors, my veterans 
here in Nevada, and all of our seniors and veterans across this 
nation? Can you look us in the eye and commit to being sure 
that they have on-time delivery?
    Mr. DeJoy. I am working toward on-time delivery, ma'am. 
Yes, I can commit to that.
    Senator Rosen. Thank you. And so did you do any analysis 
about the fees, if mail is late, the late fees that people 
would get when they paid their rent or their car payment or 
their utility bill, if the mail is slowed down, and the impact 
that the charges and those fees would have on working families? 
Is there any analysis about the impact of late delivery by you 
on that, sir? Yes or no, please.
    Mr. DeJoy. The analysis that we did was that if we moved 
the mail on schedule that all late deliveries would have been 
improved. That is the analysis.
    Senator Rosen. Obviously that is not the case, so we need 
to continue this.
    Mr. DeJoy. For a variety of reasons.
    Senator Rosen. Our deployed servicemembers routinely cast 
their ballots by mail. Did you specifically analyze how your 
policy changes would impact our service men and women across 
this country and across the globe, how your changes would 
impact them, sir?
    Mr. DeJoy. Senator, the analysis that we did would show 
that we would improve service to every constituent.
    Senator Rosen. So that is great. So can you provide me, by 
this Sunday, if I understand you correctly, you have an 
analysis that will show that this should have improved it, 
although we are finding out through thousands and thousands of 
contacts to our office, to our connections, that it has not 
been the case. So this is, frankly, unacceptable, and I would 
like to see the analysis that this was based on, to our offices 
by this Sunday. Can you commit to that, sir?
    Mr. DeJoy. No, ma'am.
    Senator Rosen. Can you commit to providing it to us at all, 
sir?
    Mr. DeJoy. I will get back to you on that. I would----
    Senator Rosen. You cannot commit to providing the American 
people the analysis that you used to base your decisions about 
their very important medications, their social security checks, 
and all the other things? You will not commit to the American 
people to be transparent?
    Mr. DeJoy. Senator, I will go back and get the truck 
schedule, the analysis that designed the truck schedule, that I 
directed----
    Senator Rosen. Can you commit to transparency, sir? That is 
all I am asking.
    Mr. DeJoy. We are very transparent, yes.
    Senator Rosen. Then that means you would provide us your 
analysis. If you are transparent, then ergo that means you will 
provide us the data that you used to base these important 
decisions that impact people's lives. I want you to look in the 
camera. There are millions of people watching who are impacted 
every day by what you do. And please understand that.
    And so I want you to commit to the American people to 
transparency, and provide us with the data that has been used 
to create these decisions.
    Mr. DeJoy. Ma'am, I do not accept the premise, and I will 
provide you with the transportation schedule that I directed 
the organization to adhere to. Yes, I will do that.
    Senator Rosen. We appreciate that. I look forward to seeing 
that and I look forward to having future discussions with you. 
Thank you. My time is up.
    Chairman Johnson. Is Senator Paul available?
    Senator Paul. Yes. Do you have me?
    Chairman Johnson. Senator Paul, yes, we can hear you.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. All right. Thank you, Mr. DeJoy, for your 
testimony, and thank you for taking what sounds like an often 
thankless job full of partisan rancor, and thanks for bringing 
your business acumen to something that really probably, from my 
opinion, is almost an impossible problem, short of legislative 
reform, and even with legislative reform, I see it as almost an 
impossibility how we would actually balance the annual 
operating losses where you are not running a loss every year. 
Eight to nine billion dollars a year is an enormous loss.
    I have been of the opinion, basically, we should not give 
you any more money unless it is attached to reform. That is the 
only leverage we have. When the post office becomes desperate 
for money we should attach things they do not want to 
necessarily do. Less employees--we started that a few years ago 
and we have to do more of it. If the mail keeps dropping you 
have to have less employees. That is where your legacy costs 
are too. Over time you will catch up on that, but we have to go 
to less employees over time.
    We also need to look at the easiest way to continue to 
personalize service to each person individually at their house. 
We could do it less frequently. Frankly, people who live 20 
miles down a shell road, if we told them they were going to get 
it twice a week versus six times a week, I think we would 
actually live with this.
    I grew up in a town of 13,000 people. I still live in a 
small town. I really think people could live with that. But 
people should be told of the problem of continuing to run 
massive deficits, not just in the post office but throughout 
government. We should not pass money out like it is candy. We 
should send it attached to specific reforms.
    Could you list some of the legal impediments you have? You 
are a businessman. If you came in as a venture capitalist, and 
a venture capitalist group took over the post office and named 
you CEO, what would you do that you are unable to do because it 
is a government entity now? What are the governmental or legal 
restraints that prevent you from actually fixing the $8 billion 
to $9 billion annual loss that the post office has?
    Mr. DeJoy. Thank you, Senator, for the opportunity to 
address that. I am a little bit more optimistic than you, in 
terms of our ability to at least get to a close point of break 
even. No. 1, the legislative reform that I would ask is what I 
said in my written testimony and opening speech, or opening 
remarks, on integration of Medicaid and pension reform. I would 
like to be kind of liberated on pricing from the--it is a very 
competitive market out there now. I would like more pricing 
freedom. That would help us. I would like some of our unfunded 
mandates addressed.
    And then within the organization, I would be able, without 
as much fanfare, to do a simple thing like, say, adhere to our 
schedules, right? If we adhere to our schedules that will 
improve performance. In transition, there would be an issue, 
and we are seeing that recover right now. And once we get mail 
and packages moving at 97 percent--with trucks that are moving 
at 97 percent on time, and with driving costs out of the system 
by doing that, that is what I would do in my own business. In 
my own business I would craft new business revenue-generating 
ideas, which we have here, that will drive billions of dollars 
of contribution to the cost to serve the American people.
    So we are in the beginning of having a plan. I am an 
optimist about trying to pull this off.
    Senator Paul. I want to ask you your opinion on going from 
6 days to 5 days, because that is really the job of Congress. 
But that is estimated to save $1 billion, $1.5 billion. I think 
at the very least you have to do that. That could be a one-
sentence bill that saves $1.5 billion over there and puts us on 
a better footing. I think you could go further, and instead of 
assessing people more of a postal charge if they live 20 miles 
down a dirt road, simply just have less frequent delivery. I 
think that alone would be tolerable and they would still have 
personal service but it would be less frequent. I think you 
could make up for a large amount of your shortfall if you went 
actually below 5 days for some very rural areas.
    It has been tested, or it has been said that some of your 
competitors use the post office for the last-mile delivery and 
that we do not charge them an adequate amount. They are sort of 
using the post office to subsidize last-mile delivery. Is that 
a problem? Do we charge your competitors enough when they get a 
package shipped to an area and then they use the post office 
for the last mile? Is that competitively bid? Do you think that 
is a problem? Should we do anything to fix that?
    Mr. DeJoy. Senator, if I may, when I first came here, when 
I first got this assignment, that was an obvious thing to me, 
cut back to 5 days or 4 days, whatever. As I have worked 
through the process and researched, and studied the 
organization, I think the 6-day delivery, the connection that 
the postal letter carrier has with the American people, that 
gives us this highly trusted brand, and where the economy is 
going in the future, I think that is probably our biggest 
strength to capitalize on.
    You talk about $1.5 billion to take a day away. I am 
sitting here on a transportation schedule change that could get 
us $2 billion or $3 billion, right, and improve service, and 
improve the connection to the American people. So there are 
lots of----
    Senator Paul. I will believe that when I see it. I do not 
doubt you but I do doubt the government and the post office 
history.
    What about the last-mile delivery by your competitors? Are 
we getting a market rate from them?
    Mr. DeJoy. We are studying it. I do not believe, my general 
view--I have kind of been here 60 days and I have looked at 
that--there are--we make broad-based deals across the whole 
country that deal with average rates. There are areas that we 
could push them up, and we are studying that. I do not believe 
that, on the surface. It is reasonable business gaps that may 
exist, is how I describe it.
    Senator Paul. All right. Thanks for trying to fix sort of 
perhaps an unfixable problem, and hang in there, and just the 
partisan barbs, hopefully they will be portrayed for what they 
are, barbs that really are not trying to fix anything but they 
are just doing electoral politics by way of attacking you. So I 
apologize for that, from our colleagues across the aisle, and 
wish you the best. Thanks.
    Mr. DeJoy. Thank you.
    Chairman Johnson. Thank you, Senator Paul. Senator Romney, 
are you there?

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Yes, I am. Can you hear me, Mr. Chairman?
    Chairman Johnson. Loud and clear. Go ahead.
    Senator Romney. Good thank. Look, I want to begin by 
expressing my appreciation to the thousands upon thousands of 
letter carriers. I want to note, as well, that the postal 
workers have made our vote-by-mail system in Utah a reliable 
and a very successful system, I think, for the entire nation.
    Mr. DeJoy, assuming as I do that you have been truthful in 
your testimony today, I can imagine how frustrating it is to be 
accused of political motives in your management responsibility. 
At the same time, of course, you can surely understand that 
there have been pretty good reasons for people to think that 
you or your colleagues are purposely acting to suppress voting, 
or that you are purposely prevent ballots from being counted.
    Any surprise at such concerns has to be tempered by the 
fact that the President has made repeated claims that mail-in 
voting will be fraudulent, and that he does not want to give 
more money to the post office, because without more money you 
cannot have universal mail-in voting.
    But putting that aside, let me note that a great deal has 
been made of the fact that you contributed to President Trump's 
campaign. I would note that you also generously contributed to 
my campaign. Some people would say that you have contributed to 
both sides. [Laughter.]
    Let me note that like others today I state the obvious when 
I say that reliable, valid voting is essential to democracy 
here, and, of course, to other places around the world. And 
particularly with COVID still raging, the mail is essential to 
our voting system, and therefore to democracy.
    Do you have a high degree of confidence that virtually all 
the ballots that would be mailed, let us say, 7 days before an 
election, would actually be able to be received and counted? If 
people vote within 7 days of an election, are they highly 
confident--are you highly confident that those ballots would 
then be received?
    Mr. DeJoy. Extremely, highly confident. We will scour every 
plant, each night leading up to Election Day. We are very 
confident.
    Senator Romney. I very much appreciate that. That is a 
commitment. I hope the American people, as they see news 
reports of this hearing and of others that are going to come in 
the House, will underscore the fact that if they get their 
ballots in at least 7 days before an election, and probably 
even closer to the election than that, but that the person who 
is running the post office is saying he is highly confident 
those ballots will be received by the various clerks in a 
timely way. That is key to us.
    On a separate topic, you mentioned that there are delays in 
the system, and that is, of course, to be expected. Are there 
greater delays in certain areas than others? So, for instance, 
are delays greater in rural areas than they are in the rest of 
the country?
    Mr. DeJoy. Senator, I think more urban areas, and the 
intimidation of the coronavirus, which scares our--employee 
availability average has dropped across the Nation, about 4 
percent. But when you can go into some of these, what I would 
say, hot spots--Philadelphia, Detroit--they are as much as 20, 
25 percent. And we have routes, like Philadelphia has 750 
routes, and we have days where we are short 200 carriers. And 
this can go on for a while.
    That is not the only contribution but when the American 
people see 2, 3 days that they have not seen their carrier, 
that is an issue. I would say I think there is at least 20 of 
those around, in descending level of consequence around the 
country.
    Senator Romney. Yes. Thank you. I will just end by saying, 
like a number of my colleagues who have already expressed this 
point, I would very much look forward to seeing--and I am not 
talking about by Sunday; I just mean at some point--seeing a 
plan developed by someone of your expertise in logistics for 
how we can get the post office to be more economically managed, 
but, at the same time, maintain a level of service which is 
essential for a functioning economy. And that is a real 
challenge, but as someone who has done what you have done 
throughout your career, I expect you to be up to the task. And 
like Senator Paul, I am anxious for there to be a recognition 
on the part of Congress that for us to demand certain service 
levels may require us to make legislative changes.
    So please feel welcome in our Committee, or in the House, 
for letting us know what we need to do to make sure that you 
can do the job that we have asked you to do. Thank you, Mr. 
DeJoy. I appreciate your service.
    Mr. DeJoy. Thank you, sir.
    Chairman Johnson. Thanks, Senator Romney. Senator Enzi.

               OPENING STATEMENT OF SENATOR ENZI

    Senator Enzi. Thank you. I really appreciate you, Chairman 
Johnson, holding this hearing, and I especially appreciate the 
Postmaster General coming to this hearing, knowing what kind of 
target he will be. It has to be really difficult only being in 
office 60 days and being expected to solve all of the problems 
of the Postal Service. It has been in a crisis for many years.
    Senator Collins used to head this Committee when it was not 
called Homeland Security. It was Government Affairs, and she 
has worked on the post office all of that time, and has a 
pretty good bill that she has worked on with Senator Feinstein 
that I hope people will take a look at. I am not sure that 
anything can be done in a bipartisan way, particularly if one 
of the participants, Susan Collins, is up for election, because 
that might help her in her campaign. But she has been dedicated 
to this. This is not a new idea that she had. It is something 
that she has been working on, and it has a lot of good ideas in 
it.
    I really appreciate postal workers. In Wyoming, 
particularly, they are doing an outstanding job in spite of all 
of the difficulties of the pandemic. My father-in-law was a 
postal worker, and he was before the mail-sorting machines, and 
he was pleased that he was able to memorize all the ZIP codes 
in the Sheridan area, and handled the sorting. Of course, now 
local mail is not postmarked locally. These are problems that--
I did not realize that you personally deliver everything, that 
you personally fix the sorting machines. That was all news to 
me.
    And detailed analysis, how much detailed analysis can you 
do in 60 days, particularly, as I suspect, that maybe people 
are not wanting to share information with you.? I hope that 
those postal workers out there that are dedicated will actually 
do something to help out on it.
    Of course, you have been accused of picking on veterans and 
picking on seniors, and I have to admit that I have felt picked 
on, not by you but by the Postal Service recently.
    I was glad to hear your explanation that you are having 
some difficulty with people to deliver the mail in light of the 
pandemic. I do not think a lot of people understand that. I did 
not understand that. I know that we had a package that we were 
expecting, that was being traced, and we paid extra to have it 
traced, and we know it sat in the D.C. post office for 11 days 
before it was delivered to us. There have been days that our 
mail was not picked up, so I am glad to know the reason behind 
that, and to find out--this is the big surprise--it was not 
you. I thought you caused all of that.
    Mail-sorting machines. In Wyoming, I do not think we sort 
any mail in Wyoming anymore. All those got moved to other 
centers, and I thought it was being done pretty efficiently in 
Wyoming. What I also learned was that when you move a sorting 
center, under the union requirements, if the people do not want 
to move they do not have to move and they still get paid. That 
is not going to save any money. I have asked for the analysis 
on some of these changes that have drastically affected 
Wyoming, and which, of course, were not done under you. It was 
done under previous administrations. I know that they want to 
save money, but they have to do some analysis that will 
actually save money.
    You used to be able to put money in a collection box--but 
an envelope in a collection box for local delivery, and they 
got it the next day. Now you put in my community for local 
delivery, it goes to Denver first, gets sorted and comes back 
to Gillette, sometimes postmarked in Denver. That is not good 
management. As an accountant, I know that postmarks make a 
difference. So I am concerned about that.
    I have a lot of concerns, and I am only pointing these out 
because I know that you have only had 60 days to work on them, 
and your plate was already full. But I am trying to fill it a 
little bit more. Again, I appreciate that you are willing to 
take on this--I guess you would have to call it an adventure, 
not a job, because it would be too tough as a job. But I know 
you have made some sacrifices to get to this. I hope that you 
will take a look at the urban areas. We have been picked on in 
the rural areas for a long time, but we have some really 
efficient people out there that are dealing with long distances 
and doing it very well.
    But when I go to my post office in D.C., I find that there 
is only one person working at the counter, and if the person 
that comes up to the counter needs a box to mail it in, the 
boxes are not out where people can actually get them, so the 
person behind the counter has to leave and go get a box. And 
when they bring the box back it still has to be sealed and 
addressed, and they do not move them over to the side to see if 
they can wait on the next customer. Everybody waits at social 
distancing.
    I have been to the post office before during my lunch hour, 
and found that the postal workers decided that was their lunch 
hour as well. No business lets their employees sit down and eat 
in front of customers during their lunch hour.
    Well, enough of my, I guess, trying to defend you here.
    Mr. DeJoy. Senator, if I may, and thank you for the 
support. But if I may, the day I take the seat, as with any 
organization, the day you become the CEO you are responsible 
for everything that goes on around you, and I have big enough 
shoulders to deal with that.
    But more important about what you said in the beginning, 
about legislation, not moving, we, the organization, needs to, 
and this board, we will move forward. We have to, because 
without legislation, without any assistance, we will run out of 
money. And 9 months, 12--we talk about a 633,000-person 
organization, and 9 months' worth of cash, and everybody thinks 
we are OK. That is outrageous thinking.
    So we need to--we will--and that is kind of the difference. 
As I said in my opening remarks to the Board of Governors, we 
will do what we need to do to meet our operating objectives and 
get to self-sustaining manner. So thank you.
    Senator Enzi. I appreciate your willingness to be here, and 
I hope that you will take a look at the Collins-Feinstein bill 
and give us some analysis on that. I recognize that you have to 
rely on the postmasters across the United States doing their 
job, to manage their own business. So thank you for taking this 
job.
    Chairman Johnson. Thank you, Senator Enzi. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Thank you, Mr. 
DeJoy, for being here. Let me see if I can ask a few questions 
to get started that will maybe help clear out some of this 
misinformation that we have heard repeated over and over and 
over again in the media, and some of it echoed today.
    Just to be clear, will USPS have enough cash on hand to 
support operating expenses through the November election?
    Mr. DeJoy. Yes, sir.
    Senator Hawley. Has the Postal Service seen an increase, 
actually, of total operating revenues in the most recently 
reported quarter relative to last year?
    Mr. DeJoy. Yes, sir. Small but yes.
    Senator Hawley. Has the Postal Service seen its overall 
cash on hand position increase since the start of the pandemic 
in March to a level of approximately $15 billion? Is that 
right?
    Mr. DeJoy. Somewhere between $14 and $15 billion, yes.
    Senator Hawley. So if I have understood your testimony 
correctly today, what I have heard you say, and also what I 
have read, in your written testimony, your testimony to us is 
that the Postal Service has the wherewithal, it has the 
resources, it has what it needs in order to deliver the mail, 
safely and on time, through the November election, just to be 
clear about that. Is that right?
    Mr. DeJoy. Yes, Senator. Two separate things here. To 
deliver on the election and cash to operate the business in the 
future are two separate things. But yes, we have plenty of cash 
to operate before the election.
    Senator Hawley. And just on that second point, since you 
bring it up, what is your estimate of the amount of additional 
assistance that you require as you look forward to the future, 
past November and into the months and years to come?
    Mr. DeJoy. The biggest thing we need is legislative reform, 
and the PRC to decide. But I estimated about $10 billion. We 
estimate about $10 billion cost on the COVID expense side. What 
I would like to see is the note that we have negotiated with 
Treasury used to get long-term financing to buy new vehicles.
    Senator Hawley. Can I just ask you about that, since you 
bring up the note from Treasury? So the Coronavirus Aid, 
Relief, and Economic Security (CARES) Act authorized $10 
billion in borrowing authority. I understand that you reached--
USPS and the Treasury Department came to an agreement late last 
month, in principle, over what that would look like. Can you 
give us a sense of when this $10 billion that was authorized--
it is a loan--when this is likely to be made available to you, 
what you see its utility as? Just give us an update on where 
that stands.
    Mr. DeJoy. So we have a terms of agreement, and all we 
would need to do is, when we request it, get a final document 
on it. But the terms have been agreed. I mean, the issue here 
with borrowing money is you need to know how you are going to 
pay it back, and, at this particular point we are evaluating 
that. But it is available to us pretty quickly.
    Senator Hawley. What do you anticipate using it for in the 
near term, assuming that you do avail yourselves of it.
    Mr. DeJoy. There are pretty specific limitations. I cannot 
use it for capital but I can use it to cover operating costs 
that are closely associated with COVID, and we can identify 
that pretty easily.
    Senator Hawley. Now you said just a second ago, when you 
first introduced the topic of the loan, you said that you would 
like additional authority to perhaps use the loan toward 
vehicles, or as collateral for vehicles. Can you say more about 
that?
    Mr. DeJoy. Yes. So as you probably know we have many 30-
year-old vehicles and we are desperately in need of new 
vehicles. The loan is not for capital. I would like to see the 
term extended and used as a capital-type equipment loan to buy 
vehicles, and other types of modernization efforts that we 
have. But longer term than 5 years.
    Senator Hawley. Very good. So that is part of the 
additional legislative reforms or authorizations you seek. Am I 
understanding you correctly?
    Mr. DeJoy. Yes, sir, and----
    Senator Hawley. Go ahead.
    Mr. DeJoy [continuing]. They have already been passed in a 
committee a couple of years ago, what we are looking for.
    Senator Hawley. Right. Understood.
    Let's come back to some of the reforms that you have 
recently implemented. To what degree were any of the changes 
that you implemented over the summer a response to the OIG's 
recent findings?
    Mr. DeJoy. I consider the OIG's recent findings--as we were 
doing our own analytics, I thought they were, for somebody new 
coming in, I thought they were a remarkable gift, in terms of 
just laying out--there are two things with that. The system was 
out of balance. The transportation system, 40,000 trucks a day 
were running--once you get below 90 percent you cannot depend 
on anything, right?
    And then it was a cost gift. So both things, when I came in 
here, looking at where the organization was headed financially, 
and what was the thing we could balance around? Getting that 
transportation network aligned, which we will do, and saving, 
$1 billion, $1.5 billion, to $2 billion, what we can reach for, 
was a Christmas present. I was elated.
    Senator Hawley. Very good. Let me just ask you here--I see 
my time is almost expired but let me just ask you, in 
conclusion. I mean, as you probably know, my home State of 
Missouri we have a very significant percentage of our 
population in rural areas. It is the part of the State that I 
am from, where I grew up. It is absolutely vital to me that any 
Postal Service reform going forward continue to preserve the 
network of rural delivery service, that it preserves the 
existing delivery and post office box services that are 
available throughout rural Missouri.
    So can I just ask you, are you committed to protecting 
rural delivery and rural post offices for people like the folks 
I represent in Missouri, and around the country?
    Mr. DeJoy. Sir, we have an unbelievable asset in our letter 
carriers reaching every American each day, and I commit to 
trying to strengthen that relationship across the country.
    Senator Hawley. Very good. Thank you very much. Thank you, 
Mr. DeJoy. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Hawley. Before I got 
to Senator Sinema, based on one of the questions and your 
response from Senator Hawley, you talked about the 
transportation system just being out of sync. In your written 
testimony, I just want to make sure that we are talking about 
the same thing here, you said your on-time trips went from 
35,000 per day to 39,000 per day, which means a schedule time 
of 89 percent improved to 97 percent.
    So is that what you are talking about, your trucks actually 
leaving on time to get on their routes, and has that been part 
of the disruption as well, is if the letters are not getting to 
those trucks in time they may be left behind for the next day's 
delivery. Can you just explain that and clarify it a little 
better?
    Mr. DeJoy. Yes. So inside the plants there is a production 
schedule for mail that is set up to meet a dispatch schedule 
for trucks. That gets tied to a destination center for, let's 
just say, keep it simple, go right to the delivery units, where 
carriers go out in the morning and carriers then could come 
back at night. This whole thing is an aligned schedule in 
theory, on paper. There are lots of imbalances that we are 
finding as we went through this process.
    But the thing to try and get everything aligned around is 
that transportation schedule. And now we have taken that up, 
and all that mail that was on that truck was also late mail. 
Right now we have advanced the mail. Some of the mail coming 
off of the processing lines. We found these imbalances and we 
did not as great a job as we should in recovering for it, but 
we will. I am seeing improvements right now.
    Once that comes together, mail will be moving around the 
country at 97 percent, on time, and I am very excited and 
committed to trying to do that. And that, again, enables us to 
balance the front end and the delivery end of the system, and 
saves us all that money that you saw in the audit report, and 
it is in billions, not in millions.
    Chairman Johnson. So as a former manufacturer I realize if 
you do not have a good process you do not have a good product. 
So you came in, you identified some real process breakdowns. In 
a very short period of time you made a pretty dramatic 
improvement in terms of on-time dispatch level, in terms of 
that transportation system. Now you obviously have COVID, which 
is affecting our entire economy, and obviously it affects the 
postal system as well.
    So, basically what I am hearing out of your testimony is 
the delivery delays are primarily being caused by the issues 
related to COVID, but the changes you made, in terms of 
process, certainly in theory, if it had not already improved 
you already is certainly going to set you up for improvement 
and cost reductions and cost savings in the future.
    Mr. DeJoy. Yes. So a substantial portion of our delays are 
related to COVID. I will not go as far as to not say that we 
had maybe a 4 or 5 percent hit on our service level for delay. 
All sorts of mail--marketing mail, everything--because it got 
stuck on a dock. We are drastically bringing that down. Once 
that is aligned we should have a smooth-running systems, at a 
much more high performance rate.
    Chairman Johnson. OK. So some disruptions due to the 
change, but again, those changes are necessary to try and make 
cost savings and improvement in the future.
    Mr. DeJoy. This is very doable, sir. FedEx and UPS do it.
    Chairman Johnson. OK. Great. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Chairman, for holding this 
important hearing, and I want to thank Postmaster General DeJoy 
for joining us today.
    The U.S. Postal Service has always been a critical lifeline 
for communities across Arizona and the entire nation. During 
this pandemic it is even more true.
    Over the past week, my office has heard from over 18,000 
Arizonans about the importance of the Postal Service. Arizonans 
want to ensure the Postal Service will continue to deliver 
prescription drugs, assist small businesses, and support their 
right to vote. Arizona has led the way on safe and secure mail-
in voting for years. The Postal Service must act to support our 
upcoming election, especially since we will see increases in 
vote by mail due to the pandemic.
    But our hearing today should not just be about election 
mail. My constituents have also shared stories about 
prescriptions that took so long to arrive they worry whether 
the medication is spoiled. Others are concerned their small 
business will go under without reliable postal service or that 
rent checks and bill payments now take a week longer to reach 
their destination than just a few months ago.
    So, Mr. DeJoy, I am pleased that you heeded a request from 
me and my colleagues to answer questions about the operational 
services the Postal Service is making. It is critical that you 
and your team demonstrate a commitment to protecting the 
ability of customers to get the service they rely on every day, 
and successfully communicating with Congress, stakeholders, and 
election officials is a big part of that effort.
    So for my first question, in Arizona we expect 85 to 90 
percent of the electorate to vote by mail this general 
election. That is approximately 2.4 million ballots moving 
through the postal network in Arizona in the weeks before the 
election. Given that significant volume, unexpected challenges 
will certainly arise and adjustments will need to be made.
    I have been working closely with the Arizona Secretary of 
State's Office to ensure that they and other local election 
officials get their questions answered regarding mail issues so 
that we can have fair elections, and I am going to continue to 
share the full range of questions that my office receives with 
you and your team. Of course, their top concern is the timely 
delivery of ballots.
    So will local postal managers be authorized to make 
decisions, and have postal employees make extra trips or late 
trips, work overtime, in order to deliver ballots to ensure 
that plants and post offices do not fall behind in processing 
election mail?
    Mr. DeJoy. Yes, ma'am. Effective October 1st, we will have 
redundant resources and liberalization and aggressive efforts 
to make sure everything is moving and flowing timely.
    Senator Sinema. I appreciate that. Could you tell me what 
steps your office is taking to communicate this policy to 
postal managers, election officials, stakeholders, even to the 
public in Arizona, so everyone feels confident that citizens 
have fair access to voting by mail?
    Mr. DeJoy. Yes, ma'am. In general, I think we started back 
in February. We have reached out. We have had over 50,000 
contacts with elected officials around the country. As you 
know, we have sent a number of letters. We are making videos 
that will go online, with the union leadership and myself, to 
communicate out our commitment to this. We continue to work 
with the State boards. And our board, we decided to put 
together a bipartisan committee on the board to kind of oversee 
everything that we are going to be doing.
    So we are emphasizing--and, in fact, I think in September 
we are going to send a letter to every American with what our 
process is, going out to every American citizen. I appreciate 
the question, and I feel good about what the whole 
organization, from the board of directors down to our letter 
carriers and plant personnel, we are very proud of what we are 
doing, and we are going to deliver for the American people.
    Senator Sinema. Thank you for that. I appreciate it.
    Postal processing plants are the critical piece to ensure 
that everyday mail arrives in a timely fashion and that all the 
votes are counted. And so we want to make sure that those 
processing plant operations remain smooth and efficient.
    Earlier this week, in your announcement, you said you would 
not close any postal processing facilities before the election. 
I do not think you specifically ruled out consolidations of 
processing plants. So my question is, is the Postal Service 
planning to modify or reduce capacity at any postal processing 
facilities before the election, and if so, what specific steps 
are you taking to ensure that the Postal Service can continue 
to meet service standards for both election and regular mail in 
the communities served by those facilities?
    Mr. DeJoy. Senator, I promise you, we are not making any 
changes until after the election.
    Senator Sinema. I appreciate that. That was a very concise 
and direct answer. I love it.
    As you know, I recently wrote to you regarding the 
Cherrybell processing plant in Tucson. It is very important to 
mail service in our community and throughout Arizona. If the 
Postal Service considers consolidations or closures of 
processing facilities in the future, would you require new area 
mail processing (AMP) studies for any impacted facility, or 
other similar analysis, before moving forward with a 
consolidation or a closure?
    Mr. DeJoy. Thank you, Senator. I am not totally familiar 
with it, but there is a whole process, a pretty detailed 
process that we need to go through before we close a facility. 
We will take that down. If that facility ever gets on that I 
will make sure we reach out to you in advance and let you know. 
But there is a whole public awareness process, a detailed 
analysis, as to how the mail is going to be processed. It is 
not an easy thing to do. But we have it marked down and we will 
keep you posted, if that ever gets on our list of interested 
locations.
    Senator Sinema. I appreciate that. Just for your awareness, 
the original AMP for Cherrybell was done in 2011, and as you 
are probably aware, we have had very significant population 
growth throughout Arizona since then. So we want to make sure 
that decisions are made with up-to-date data. So I will follow 
up with you soon about this topic, because this is very 
important for Arizona, and it is very important for Southern 
Arizona, in particular.
    Mr. Chairman--oh, go ahead, Mr. DeJoy.
    Mr. DeJoy. I just said I look forward to speaking to you 
about it.
    Senator Sinema. Thank you. I know my time is almost done. 
The last thing I will just say is when you next consider 
operational changes, I would ask you to take into account the 
negative customer experiences that folks have shared with us, 
like spoiled medicine or missing rent checks. We have been 
getting more complaints about service getting worse since some 
of these most recent changes.
    We ask that you would take into account these negative 
customer experiences when making decision in the future, and my 
team is happy to share some of those direct experiences with 
you.
    Mr. DeJoy. Thank you for your guidance, ma'am. I appreciate 
it.
    Senator Sinema. Thank you so much for being with us today. 
Mr. Chairman, thank you for this opportunity, and I yield back.
    Chairman Johnson. Thank you, Senator Sinema.
    Let me just again thank you, Mr. Postmaster General, for 
appearing here, on pretty short notice, and subjecting yourself 
to this hearing process.
    Just to quick summarize a few things we heard today, 
obviously the postal system is every bit as affected by COVID 
as the rest of this Nation. It has been economically 
devastating. So I think for anybody to assume that service 
would maintain its high level of standards when we are in the 
midst of a pandemic I think is quite unrealistic.
    As you have stated, I think the operational changes that 
you implemented are designed for long-term improvement, but 
they created some disruptions as well. But again, coming from a 
manufacturing background, I realize you have to have a good 
process. Things have to run on time, and you recognize that as 
well. So again, I am highly supportive of those efforts. I 
think they should be commended, not condemned.
    As I stated, there is no doubt there have been some unusual 
delays--COVID, some of these operational changes--but as I 
check with our constituent service folks, what they are also 
finding is the high volume of calls concerning postal 
complaints. The vast majority seem very highly scripted, like 
this could be a very well-organized effort, which does not 
surprise me in the slightest.
    There are fundraising emails from Senate candidates and the 
Democratic Senatorial Committee dating back as far as April, 
complaining about these postal issues. So I have no doubt the 
Democrats are ginning these issues and these problems up into 
something that it is not, a very false narrative, as I said, 
designed to extract a political advantage.
    Mr. Postmaster General, I am just very sorry that you are 
on the targeting end of this political hit piece. I think it is 
very unfortunate, it is very tragic. As somebody else pointed 
out, this is part of the problem, why we have not had postal 
reform, is how people take advantage of it. Again, the 
expectation, I appreciated Senator Enzi's very common-sense 
statement of a number of different facts.
    You have only been on the job 60 days. You have a great 
background. I truly appreciate your willingness to serve in 
this role. As you heard from the Committee, we truly appreciate 
the hard work of the men and women of the U.S. Postal Service 
doing a good job delivering our mail. But we need reforms 
moving forward.
    So we might have an opportunity here. There may be another 
COVID relief package. It probably will include something for 
postal. So if there are going to be dollars allocated, what I 
am certainly asking you for is the information, the data, and 
the suggestions for true reforms. I think that is what has 
always been lacking, as I have been in this position, in terms 
of postal reform. It is always a taxpayer bailout absent of the 
types of reforms that we need to also make legislatively.
    So I really look for your guidance. I look for your data. 
That is another real shortcoming from my dealing with the U.S. 
Postal Service here. We just do not get the data that I think 
we really need to enact effective legislation. I would like to 
actually enact effective legislation. That is going to require 
cooperation with you and the postal workers.
    So again, thank you for your service. Thank you for 
stepping into this role. I apologize for the fact that you have 
become a target in a political hit job. It is very unfortunate. 
But with that, I need to----
    Senator Carper. Mr. Chairman?
    Chairman Johnson. Yes. Certainly.
    Senator Carper. Would you yield to me for a minute or two, 
please?
    Chairman Johnson. Absolutely.
    Senator Carper. Thank you, sir. Thank you so much.
    As you may recall, Mr. Chairman, one of our colleagues, the 
late Tom Coburn, he and I worked for years on major changes in 
the Postal Service, real reforms, and we have done that. We 
have developed bipartisan and a consensus around that. And we 
can do that again.
    Among things that we have heard here today, there is 
interest in Medicare integration. I think we ought to look at 
that. There is an acknowledgment that there needs to be major 
investments in the fleet, the postal fleet. The average age of 
the fleet of postal vehicles, 27 years old. There are 
investments that need to be made for additional modern 
processing equipment in our distribution centers across the 
country.
    I think there is the ability to come up with a bipartisan 
consensus on how to help the Postal Service not just get 
through a pandemic but be relevant and efficient and vibrant in 
the years to come.
    The secret to a vibrant democracy is two C's: communicate 
and compromise. With all due respect to our Postmaster General, 
I am pretty good at bipartisan communication. I reached out to 
you when you were initially selected by the Postal Board of 
Governors. And then later on I tried to reach you again and 
again for weeks, and could not even get a call-back. I was not 
the only one.
    You have to be willing to communicate. There are some 
people in the administration who do a great job at that. Bob 
Lighthizer, a trade representative, is one. Mnuchin, Secretary 
of Treasury, is one. I would urge you to emulate them.
    This is a shared responsibility. It is not on the post 
office. It is not on the men and women who work for the Postal 
Service. It is not on the Board of Governors or on you as the 
Postmaster. It is on us as well. This is a shared 
responsibility. Our country is counting on us. We are counting 
on a democracy.
    The last thing I will mention, I go back to Ben Franklin, 
the first Postmaster General. Remember what he said at the end 
of the Constitutional Convention, when they said, ``What have 
you done here? What have you created?'' And he said, ``A 
republic, if we can keep it.'' And one of the keys to keeping 
it is, frankly, a vibrant Postal Service and the ability of 
people to vote--Democrat, Republican, or whatever--for people 
to cast their votes and know that they are going to be counted. 
That is critical.
    We have a President, sadly, who wants to undermine and 
underfund the Postal Service, and undermine the ability to do 
vote by mail. That is just unacceptable. Hopefully we can do 
better than that, and I commit myself and some of my colleagues 
to try to do just that. We can always do that. In order to form 
a more perfect union, we can do better.
    Senator Peters. Mr. Chairman, if I could say a few comments 
just briefly.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. Postmaster DeJoy, 
I want to take an opportunity to thank you, as well, for 
appearing before us so willingly, and certainly on very short 
notice. But I also want to be very clear about what I have been 
hearing, and I think you have heard from my Members, and just 
to counter a little bit of what the Chairman said.
    These are real concerns that I am hearing. These are not 
manufactured. These are people who are coming forward, talking 
about delays, talking about medicine that is not available for 
them, talking about how--I shared a story with an individual 
who, because of the lack of medicine, skipped doses and was 
actually hospitalized. Those are very real. When I hear those 
kinds of stories, we stand up. That is my job. It is the job of 
every Senator here to stand up for our constituents, for the 
people back home who are being hurt, and make sure that their 
voice is heard.
    That is what this is about. It is about making sure 
people's voices are heard. That is what this hearing is about. 
This is why we are standing up and making sure the Postal 
Service does what they have done, with incredible integrity and 
professionalism, for 245 years. We want to make sure that that 
standard continues going forward.
    I fully appreciate that COVID has created significant 
problems for the Postal Service, but I will not show my chart 
again, but if you look at the chart,\1\ the service was there 
through a lot of the pandemic. It has just been in the middle 
of July where you see it dropping off dramatically. COVID has 
been with us since March, but we have seen a dramatic drop 
since mid-July, which is the time when I got all of those 
communications, and my colleagues have been getting those 
communications. They are not manufactured. These are real 
people. So I just want to be clear about that.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Peters appear in the Appendix 
on page 65.
---------------------------------------------------------------------------
    Postmaster DeJoy, you answered some of our questions today 
and I thank you for that. But there are still many left that 
are unanswered, and I think we all look forward to seeing the 
documents that we have requested so we can do our oversight 
function, delivered to us in a timely fashion. I appreciate 
your willingness to do that.
    I am going to continue with my investigation of the recent 
delays and Postal Service practices that have been put in 
place, and I urge you and your staff to be fully forthcoming 
with any additional requests. That kind of transparency is 
critically important in this job. I know you have a very hard 
job, and frankly I think you have made it harder on yourself 
because of the lack of transparency that we have seen here 
these last few weeks.
    So in the coming weeks, Congress certainly must provide the 
Postal Service with the resources and the oversight that you 
need to reliably deliver mail for the American people, but not 
just through this election. We have to make sure we get through 
the election, we have to get through the pandemic, and we want 
to make sure we put the Postal Service on sound financial 
footing to last for another 245 years and beyond.
    So thank you again, Mr. Chairman.
    Mr. DeJoy. Thank you.
    Chairman Johnson. Thank you, Senator Peters, and again, I 
am in no way, shape, or form denying that many of these 
complaints are absolutely genuine. We take these seriously and 
help our constituents, but there is also no doubt that a lot of 
this is being ginned up. Many of those complaints are highly 
scripted, and it is being done for political purpose. I mean, 
there is absolutely no doubt about that.
    We have a new Postmaster General who has been in the office 
less than 70 days. From my standpoint I think the first thing 
he needed to do is get up--start the job, roll up his shirt 
sleeves, and get to work and try and figure out what he needs 
to do to reform the process.
    I am looking forward to a totally transparent process here. 
I am looking to separate the fact from the fiction, and my 
problem is there is a lot of fiction, a lot of false narrative 
being ginned up by Democrats and the left right now.
    I want the data as well. Mr. Postmaster General, I am sure 
you will work with us in the future, and that is what I am 
basically giving you the opportunity to do. There is a 
possibility for a postal reform bill, even in this next COVID 
relief package, if there is one. So let's work in good faith. 
Thank you again for your service. Thank the men and women of 
the United States Postal Service for their service as well.
    The hearing record will remain open for 15 days, until 
September 3rd at 5 p.m., for the submission of statements and 
questions for the record.
    This hearing is adjourned. [Whereupon, at 11:18 a.m., the 
hearing was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
